No. _______

d
IN THE

Supreme Court of the United States
ZAFER CONSTRUCTION COMPANY, et al.,
Petitioner,

—v.—

UNITED STATES ARMY CORPS

OF

ENGINEERS,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

PETITION FOR WRIT OF CERTIORARI

SAM Z. GDANSKI
Counsel of Record
GDANSKI LAW PC
517 Forest Avenue
Teaneck, New Jersey 07666
(914) 589-0015
samgdanski@gdanski.com
Counsel for Petitioner

i
QUESTIONS PRESENTED
1.

It is historically known that unlike private
construction agreements, government contracts are unfairly onerous in favor of the
Government and contractors must look to the
courts for the correct and just application of
this specialized and not commonly practiced
part of the law. In direct conflict to this
Court’s precedent set forth in Hollerbach v.
United States, 233 U.S. 165, 34 S. Ct. 553
(U.S. April 6, 1914), the lower court
misapplied the law relating to reliance on
incorrect drawings and representations of the
Government.
Misapplying
controlling
precedent of this Court, the District Court
allowed the government to reap the benefit of
a mistaken bid arising out of errors in
drawings provided by the Government.
Does the law allow the government to reap the
benefit of a contractor’s mistaken bid when
the mistake was caused by incorrect drawings
provided by the Government?

2.

There is an inter-circuit split on an issue of
serious importance. This is the application of
C.F.R 14.407-3. and the Government’s
requirement to verify a bid from a contractor
and notify the contractor of the potential
mistake when the Government is or should
have been aware of a mistaken bid. This Court
should decide the issue so the law is applied
consistently for future parties. The 9 th Circuit
case of Sulzer Bingham Pumps, Inc. v.
Lockheed Missiles & Space Co. is directly on
point to the present facts and is unlike any

ii
case relied upon in the Court of Appeals for
the Federal Circuit.
Contrary to direct precedent, should the
Government be allowed to benefit from
mistaken bids when the Government does not
comply with C.F.R 14.407-3 requiring
verification of the bid by the Government?

iii
PARTIES TO THE PROCEEDINGS
Petitioner, Zafer Construction Company Inc.,
was the appellant in the court below with respect
to the issues presented. Respondent, the United
States, was the appellee in the court below with
respect to the issues presented.

iv
CORPORATE DISCLOSURE STATEMENT
Zafer Construction Company LLC is privately
held, and no publicly traded company owns more
than 10% of its stock. It does not have a parent
company.

v
TABLE OF CONTENTS
PAGE

QUESTIONS PRESENTED . . . . . . . . . . . . . . .

i

PARTIES TO THE PROCEEDING . . . . . . . . .

iii

CORPORATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . .

iv

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . .

vii

OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . .

1

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

REGULATORY PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . .

3

STATEMENT OF THE CASE . . . . . . . . . . . . . .

6

REASONS FOR GRANTING THE WRIT . . .

8

I. This Court’s Own Precedent Clearly
Governs This Case In Holding That
Mistaken Bids, Arising Out Of Errors In
Drawings And Specifications Provided
By The Government, Is Grounds For
Contract Reformation Even If The
Contract Has Language Relating To A
Site Visit.. . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

vi
PAGE

II. This Court Should Resolve Issue Which
Has Not Been Uniformly Decided In
District Courts That Even If A Mistake
Is A Business Error, Reformation Is
Required If Government Fails To
Comply With C.F.R 14.407-37 . . . . . . .
12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

APPENDIX
Court of Appeals for the Federal Circuit
Judgment and Opinion, 753 Fed. Appx.
909 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1a

ASBCA decision found at Appeal of Zafer
Constr. Co., 2017-1 B.C.A. (CCH)
¶36,776, 179208 . . . . . . . . . . . . . . . . . . . . . . . .

3a

Court of Appeals for the Federal Circuit
Denial of Zafer’s Petition for a Rehearing
En Banc (April 30, 2019). . . . . . . . . . . . . . . .

94a

vii
TABLE OF AUTHORITIES
PAGE(S)

Cases
Aydin Corp. v. United States,
229 Ct. Cl. 309, 669 F.2d 681 (1982) . . . . . . . . 12
Balaban-Gordon Co. v. Brighton Sewer Dist.,
41 A.D.2d 246, 342 N.Y.S.2d 435 (1973) . . . . 10
Hollerbach v. United States,
233 U.S. 165, 34 S. Ct. 553,
58 L. Ed. 898 (1914) . . . . . . . . . . . . . . . . . . . . . . 8, 9
Manistique Tool and Mfg. Co.,
84-3 D.C.A. 17, 599 (Aug. 13, 1984) . . . . . . . . . 16
Ruggiero v. United States,
190 Ct. Cl. 327, 420 F.2d 709 (1970) . . . . . . . 12
Sealtite Corporation,
1984 ASBCA Lexis 684 . . . . . . . . . . . . . . . . . 13, 14
Sulzer Bingham Pumps, Inc. v. Lockheed
Missiles & Space Co.,
947 F.2d 1362 (9th Cir. 1991) . . . . . . . . . . . . . . . 12
Union Pacific Railway Co. v. Chicago R.I. & P.
Railway,
163 U.S. 564, 41 L. Ed. 365, 16 S. Ct. 1173
(1896) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Hamilton Enterprises,
711 F.2d 1038 (Fed. Cir. 1983) . . . . . . . . . . . . . . 15
United States v. Odessa Union Warehouse
Co-Op,
833 F.2d 172 (9th Cir. 1987) . . . . . . . . . . . . . . . . 16

viii
PAGE(S)

United States v. Stage Co.,
199 U.S. 414 (1905) . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Statutes, Rules and Regulations
C.F.R. 14.407-1-3 . . . . . . . . . . . . . . . . . . . . . . . . . passim
Articles
The Federal Circuits Great Dissenter and Her
“National Policy of Fairness to Contractors”,
40 Pub. Cont. L.J. 275 . . . . . . . . . . . . . . . . . . . . . . . 4

1
PETITION FOR A WRIT OF CERTIORARI
Zafer respectfully petitions the Court for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the Federal Circuit in
this case.
OPINIONS BELOW
The opinion of the Federal Circuit is reported at
Zafer Constr. Co. v. United States Army Corps of
Eng’rs, 753 Fed. Appx. 909, and is reproduced in
the appendix (“App.”) beginning at APP-1. The
opinion of the ASBCA is reported at Appeal of
Zafer Constr. Co., 2017-1 B.C.A. (CCH) P36,776,
179208, and is reproduced beginning at App-3.
JURISDICTION
The Federal Circuit entered its judgment on
February 12, 2019, and it denied Zafer’s timely
motion for rehearing en banc on April 30, 2019.
This Court is granted jurisdiction by 28 U.S.C. §
1254(1).
REGULATORY PROVISIONS INVOLVED
The Federal Acquisition Regulation (“FAR”), 48
C.F.R., provides as follows:
FAR 14.407-1
After the opening of bids, contracting
officers shall examine all bids for
mistakes. In cases of apparent mistakes
and in cases where the contracting officer
has reason to believe that a mistake may
have been made, the contracting officer

2
shall request from the bidder a
verification of the bid, calling attention to
the suspected mistake. If the bidder
alleges a mistake, the matter shall be
processed in accordance with this section
14.407. Such actions shall be taken before
award.
FAR 14.407-3
In order to minimize delays in contract
awards, administrative determinations
may be made as described in this 14.4073 in connection with mistakes in bids
alleged after opening of bids and before
award. The authority to permit correction
of bids is limited to bids that, as
submitted,
are
responsive
to
the
invitation and may not be used to permit
correction of bids to make them
responsive. This authority is in addition
to that in 14.407-2 or that may be
otherwise available.
(a) If a bidder requests permission to
correct a mistake and clear and
convincing evidence establishes
both the existence of the mistake
and the bid actually intended, the
agency
head
may
make
a
determination
permitting
the
bidder to correct the mistake;
provided, that if this correction
would result in displacing one or
more
lower
bids,
such
a
determination shall not be made
unless the existence of the mistake
and the bid actually intended are

3
ascertainable substantially from
the invitation and the bid itself.
(b) If (1) a bidder requests permission
to withdraw a bid rather than
correct it, (2) the evidence is clear
and convincing both as to the
existence of a mistake and as to the
bid actually intended, and (3) the
bid, both as uncorrected and as
corrected, is the lowest received,
the agency head may make a
determination to correct the bid
and not permit its withdrawal.
(c) If, under paragraph (a) or (b) of
this subsection,
(1) The evidence of a mistake is
clear and convincing only as to
the mistake but not as to the
intended bid, or
(2) The
evidence
reasonably
supports the existence of a
mistake but is not clear and
convincing, an official above the
contracting
officer,
unless
otherwise provided by agency
procedures,
may
make
a
determination permitting the
bidder to withdraw the bid.
INTRODUCTION
This case centers around a mistake in bid
caused by the Government. It is well known that
government contracts are very one sided and
contractors face an unfair uphill battle in dealing

4
with contract provisions and administrations. In
fact, Judge Pauline Newman during her tenure on
the U.S. Court of Appeals for the Federal Circuit
has dissented so often citing the importance of lost
government contractor rights “Her dissents
represent such a significant percentage of
contract-related appeals in which she participated
that the government contracting legal community
may appropriately view her as the Federal
Circuit’s “great dissenter.” These dissents
respectfully but emphatically criticize her
colleagues for not recognizing legitimate interests
of contractors and citizens seeking remedies from
the Government”. The Federal Circuits Great
Dissenter and Her “National Policy of Fairness to
Contractors”, 40 Pub. Cont. L.J. 275.
The district court erred in applying the case law
relating to mistakes in bid arising out of errors in
the drawings and specifications given to
prospective bidders. The panel ignored the fact
that this Court holds that a mistake in bid caused
by errors in government provided drawings and
relied upon by a contractor is an exception that
allows reformation of a contract. This Court has
held this is the law even if the contract has
language allowing a site visit by a bidder to verify
on site conditions. Following a policy of avoiding
unfair contracts, the Supreme Court is clear in its
allowance of reformation in these instances. This
is also because the error was not one of
risk/reward and it can be easily rectified because
it is quantifiable.
Furthermore, notwithstanding the district
court’s failure to apply the correct law relating to
errors in the drawings, the district court failed to
apply C.F.R 14.407-3 which requires that even if

5
there is a mistake in judgment by a contractor, it
must be brought to the attention of a bidder with
specificity prior to award. This nuance and
exception to the laws of mistaken bid is of serious
importance because ignoring it would allow the
government to enforce unconscionable contracts
against bidders despite both case law and public
policy not allowing it. Set forth below, decisions
from 1) the 9 th Circuit, 2) New York Appellate
Division and 3) ASBCA decisions evidence rulings
in favor of Contractors similar to Zafer to avoid
“unconscionable contracts”.
In this instance, the district court failed to
apply comply with FAR 14.407-3 in every aspect,
and Zafer’s mistaken bid, even if one of judgment
(which we do not concede), must be reformed to
avoid its “unconscionability”.
The differing
analyses between courts regarding this issue
evidence the need for this court to address this
precedential analysis.
The panel of this court in its per curiam decision
dated Feb. 12, 2019 focused on the issue of despite
there being no scheduled site visit for all bidders,
Zafer did not request one. As set forth below,
reversal is warranted required because the issue
of a site visit (which Zafer still contends never
occurred) is misplaced and does not relieve the
Government from its actions.
This court should follow what has already been
decided by other courts, which is that errors
arising out of misreading in the drawings are the
kind that must be reformed in contract because
not to do so would be unfair to a bidder. This is
because such mistakes lack mischief from a bidder
and at the same time can be remedied to place the

6
Government in the status quo position it
otherwise would have been in – the price of the
next lowest bidder. In our case the amount
requested is actually lower than the next lowest
bidder.
STATEMENT OF THE CASE
This is a case about unlawfully benefiting from
a mistake and the Government’s failure to take
proper steps when it knew there was a possibility
of a mistake in bid during the evaluation of offers.
Zafer Construction Company received contract
No.: W917PM-05-C-0005 for design, renovation,
replacement and repair of work on a military
hospital campus operated by the Afghanistan
National Army (ANA) in Kabul, Afghanistan.
Zafer took all prudent steps to price the contract.
Zafer used the “sketches” that the government
provided to submit their bid. These were the
documents which the government 1) expected
bidders to base their price on and 2) referred to as
“drawings” or “sketches” which had to be read
together with the specifications.” Contractually
this is was the way Zafer could bid the contract
premised on the contract documents.
Unfortunately, the drawings were inaccurate
and as a result Zafer’s bid was incorrect and
grossly lower than what it should have been.
Everyone is in agreement that the drawings
contained errors significantly different from the
onsite conditions. In fact, the price disparity was
too large to be unnoticed because it was lower
than the next lowest bidder by $6,700,000 and
below the government’s IGE by 44%.

7
Interestingly, Zafer’s initial bid for the
Afghanistan National Army (“ANA”) hospital was
rejected as “late”.
You are 30 minutes late,7 minutes. It is
unlikely to be reviewed. We only accept
late proposals in very rare circumstances.
Zafer did not respond, however ten days later the
C.O. sent a vague generalized email:
We are in the process of reviewing your
bid proposal for the ANA Military
Hospital, Kabul Afghanistan, Solicitation
#W917PM-04-R-0011. We would ask at
this time you review what you submitted
as your proposal and verify your proposal
as the total price of $16,960,202.00 This
price included the base bid and the
options.” Appx84.
This sparse three sentence communication is what
the government is defending as adequate
“verification” as required under 48 C.F.R.
§ 14.407-3 to notify and appraise the contractor
that the government suspected a mistake in bid
and specifically why. Zafer was requested to
confirm the validity of its bid within a 24-hour
period and there was no indication in this alleged
“verification” request that the government
suspected a mistake in bid and if so the basis for
such a belief both of which are required by 48
C.F.R. § 14.407-3.
The reason the Government was aware of the
mistake is because the gross price difference
between Zafer’s bid and the next lowest
responsible bidder Kolin Construction Company
(“KCC”). Kolin, also a Turkish Contractor, had a

8
bid which was higher than Zafer by $6,700,000
and well below the government’s IGE. The
Government acknowledged that it made a mistake
because it incorrectly thought Kolin was an
American contractor and that accounted for its
price being higher.
REASONS FOR GRANTING THE WRIT
I. This Court’s Own Precedent Clearly
Governs This Case In Holding That
Mistaken Bids, Arising Out Of Errors In
Drawings And Specifications Provided
By The Government, Is Grounds For
Contract Reformation Even If The
Contract Has Language Relating To A
Site Visit.
“A Government contract should be interpreted
as are contracts between individuals, with a view
to ascertaining the intention of the parties and to
give it effect accordingly, if that can be done
consistently with the terms [*172] of the
instrument.” Hollerbach v. United States, 233
U.S. 165, 172, 34 S. Ct. 553, 556, 58 L. Ed. 898,
901 (1914). This language comes from this Court
when presented with the question of whether a
court should allow reformation of a contract when
a mistake in bid was made as a result of errors in
the drawings and specifications provided by the
Government. Similar to our case, the Government
in Hollerbach argued that the contract urged
contractors to verify the drawings by visiting the
site, and absent such visit, mistakes in a bid
caused by errors in the drawings should be placed
on the contractor. This Court clearly disagreed
with this argument and stated “We think this

9
positive statement of the specifications must be
taken as true and binding upon the Government,
and that upon it rather than upon the claimants
must fall the loss resulting from such mistaken
representations. We think it would be going quite
too far to interpret the general language of the
other paragraphs as requiring independent
investigation of facts which the specifications
furnished by the Government as a basis of the
contract left in no doubt. If the Government
wished to leave the matter open to the
independent investigation of the claimants it
might easily have omitted the specification as to
the character of the filling back of the dam. In its
positive assertion of the nature of this much of the
work it made a representation upon which the
claimants had a right to rely without an
investigation to prove its falsity. See United
States v. Stage Co., 199 U.S. 414, 424 (1905);
Hollerbach v. United States, 233 U.S. 165, 172, 34
S. Ct. 553, 556, 58 L. Ed. 898, 901 (1914).
The analysis of Hollerbach is directly on point
to the facts in this case. Like Hollerbach, Zafer
relied
on
erroneous
drawings
from
the
Government which resulted in a mistake in their
bid. Like Hollerbach, Zafer did not attend a site
visit. However, like this court ruled in Hollerbach,
the option of attending a site visit does not negate
positive representations from the Government of
the conditions of the property. If the Government
wished to leave conditions of the property open to
investigation, it should not have provided the
drawings to bidders. Accordingly, pursuant to
direct precedent from this Court, reformation of
the contract should be granted due to the errors
in the drawings provided by the Government.

10
Furthermore, policy issued by courts hold that
errors in calculating the drawings for a bid is one
which is quantifiable, and it would be unfair to
enforce it against a party when it can easily be
corrected. In Balaban-Gordon Co. v. Brighton
Sewer Dist., the Appellate Division of New York
dealt with facts similar to the present case. In
Balaban, the contractor made a “unilateral
mistake
in
interpreting
the
engineers’
specifications concerning equipment to be
included in the bid price for a sewer district.” This
mistake in reading the drawings resulted in
Balaban submitting a bid lower than it otherwise
would have. The court held that it was “a material
mistake of serious consequences to the bidder
from which it (contractor) should be relieved if the
sewer district (government) can be placed in
status quo and if the bidder’s mistake is
excusable.” The court went so far as to say even if
the bidder was negligent, “relief should be granted
because the assurance exists from the objective
proof that the transaction is free from mischief.”
Zafer’s mistake was one of a discrepancy in the
calculations of the drawings, and as a result “did
not pertain to an evaluation of risks or estimation
of requirements or costs by the bidder and the
effect of the mistake was verifiable in much the
same way as a clerical error, the impossibility of
performance or an arithmetical error.” Quite
simply, “if a mistake has been made under
circumstances justifying relief, the municipality
should not be allowed to enforce the bargain.”
In our case, Zafer’s error relates to the number
of floors in a building which is easily quantifiable.
This is the exact type of scenario that courts have
ruled it would be unfair and unconscionable to

11
enforce against a contractor. As long as the
government can be placed back in the status quo
it cannot take advantage of a contractor for this
type of mistake. Courts have defined the status
quo as one as the difference with the next low bid.
The Government here would be placed in the same
position in had it allowed reformation. This is
because Zafer’s request is still less than the next
lowest bidder.
The District Court’s decision was based on
Zafer’s alleged failure to attend a site visit. This
conclusion however overlooked the fact that the
underlying mistake here is related to the reading
of the drawings i.e. interpreting different levels of
floors. Cases cited by the Government dealt with
known risks in determining cost of manpower and
material etc. Zafer’s mistake is not the kind of
mistake that prevents reformation. To the
contrary, because it is an error that is easily
quantifiable, courts have deemed it to be one that
requires reformation. Further, the reason
nevertheless that this court should grant this
petition is that the three venues cited here, Ninth
Circuit, New York state law and ASBCA decisions
state that even inadvertence, negligence or gross
carelessness does not preclude relief as
reformation because there is no meeting of the
minds.

12
II. This Court Should Resolve Issue
Which Has Not Been Uniformly
Decided In District Courts That Even
If A Mistake Is A Business Error,
Reformation Is Required If GovernMent Fails To Comply With C.F.R
14.407-3.
The Ninth Circuit, in a case exactly directly on
point interpreting the Federal Acquisition
Regulations in the context of a government
contracts, dealt with the direct issue of whether
“government contract law does not permit a court
ever to adjust the contract price where the
underbid is the product of judgment errors as
opposed to arithmetic miscalculations.”
Sulzer
Bingham Pumps, Inc. v. Lockheed Missiles &
Space Co., 947 F.2d 1362. The 9 th circuit
recognized that even though “it is apparently wellsettled government contract law that reformation,
based upon a mistake in bidding, is available to
correct only ‘clear cut clerical or arithmetical
error, or misreading of the specifications.’ Aydin
Corp. v. United States, 229 Ct. Cl. 309, 314, 669
F.2d 681, 685 (1982) (quoting Ruggiero v. United
States, 190 Ct. Cl. 327, 335, 420 F.2d 709, 713
(1970)),” courts will not allow the Government to
reap the benefit of its own “failing to follow
contractual provisions requiring bid verification”
when it “accepted an unconscionably low bid.”
Therefore, in these instances, even if an error is
one of business judgment, a court must require
reformation.
Similar to the facts surrounding this case, in
Sulzer alleged that the prime contractor, acting in
the shoes of the U.S. government “At no time did
Lockheed notify Sulzer Bingham that it suspected

13
a mistake in Sulzer Bingham’s bid. Lockheed did
not inform Sulzer Bingham that its bid was
significantly lower than the next lowest bid, and
lower than Lockheed’s own estimate of the cost of
the job as well. Lockheed never informed Sulzer
Bingham that it suspected that Sulzer Bingham
would not be able to complete the contract at the
bid price.” Taking almost identical actions, the
Government in our case did not inform Zafer of its
price disparity between its bid and the next lowest
or even the Government’s own estimate. As a
result the Government actions, the 9 th circuit held
that “Lockheed did breach the terms of its
contract by failing to ask Sulzer Bingham to verify
the bid, and that Lockheed therefore must bear
substantial responsibility for the unconscionably
low price.”
In our case, one can argue that the alleged
“verification” was not even one for a suspected
mistake in bid, but rather to establish if Zafer still
stood by the validity of its bid, after it was rejected
as late. Case law is clear a verification request
must not be vague and to the contrary should
make a bidder aware of why it is asking for the
verification and where it thinks a mistake may
have been made. The rationale behind requiring a
verification is that the government should not
snap up a bid and take advantage of a contractor.
This is why case law requires specific notice of the
details of a mistake, absent which reformation is
required.
The decision in Sealtite Corporation 1984
ASBCA Lexis 684 is on point because there the
contracting officer had requested and received a
bid verification from the appellant based on the
difference between appellant’s total bid and the

14
bid of the next low bidder. However, the
Government was aware that its estimate and the
other prices ranged from two to three times as
high as appellant’s price for item No. 1 but did not
bring this to the bidder’s attention. (It is
important to note that Sealtite was affirmed per
curiam by the Court of Appeals for the Federal
Circuit.)
Despite the verification the Government further
suspected that appellant might be bidding on an
unacceptable insulation system and requested a
second verification which appellant refused to
make because it could not obtain from the
Government information necessary to determine
whether or not he had made a mistake in bid. The
Board held that the award of contract that
followed was violative of DAR 2-406.3 (at 80,73334):” (underlining added)
It is also clear that the Government was
on notice prior to award that there was a
gross disparity between appellant’s bid
price and the prices of the other bidders,
as well as the Government’s estimate,
especially concerning item No. 1.
Although, in its attempt to obtain a
second verification, the Government
called appellant’s attention to item No. 1,
it said nothing about the gross price
disparity. Then, prior to any award being
made, and when admittedly on notice both
of a possible mistake, and that the
mistake might involve the stucco covered
insulation requirement, the Government
refused to state its understanding of what
the
specifications
required.
The
Government may have had no reason

15
initially to suspect the peculiar, and even
unreasonable, mistake appellant alleges
in its misreading of the contract to require
only painting. However, it had ample
reason to be on notice that appellant may
have bid on a misunderstanding related to
the stucco requirement. Yet, without
receiving a second verification, and while
refusing
to
state
an
important
specification
requirement,
the
Government attempted to award the
contract.
The Government’s actions
constituted a failure to comply with ASPR
2-406.3, which, in cases of suspected, as
well as alleged mistakes, requires under
(e)(1) that the contracting officer advise
the bidder, inter alia, of “important...
characteristics of the specifications” and
which under (e)(2), precludes an award
when: the amount of the bid is so far out
of line with the amounts of other bids
received or with the amount estimated by
the agency..., or there are other
indications of error so clear, as reasonably
to justify the conclusion that acceptance
of the bid would be unfair to the bidder....
The 9th circuit went further to analyze many of
the cases cited by the Government in our case and
their inapplicability to the similar facts. The
court noted that in Hamilton Enterprises, “there
was no finding of unconscionability” and “In this
case, unlike Hamilton Enterprises, supra
Lockheed is reaping the rewards of Sulzer
Bingham’s performance at the unconscionably low
price.” Further, the court went on to state that
“the Defense Department’s own adjudicatory arm

16
has itself recognized in contract disputes that
equitable principles do apply to prevent the
enforcement of an unconscionable contract. See
Manistique Tool and Mfg. Co., 84-3 D.C.A. 17, 599
At. 87, 678 (Aug. 13, 1984); see also United States
v. Odessa Union Warehouse Co-Op, 833 F.2d 172,
175 (9th Cir. 1987) (“the essence of equity
jurisdiction is the power of the court to fashion a
remedy depending upon the necessities of the
particular case”), Union Pacific Railway Co. v.
Chicago R.I. & P. Railway, 163 U.S. 564, 603-4, 41
L. Ed. 365, 16 S. Ct. 1173 (1896) (“doubtless a
court of equity may refused to decree the specific
performance of a contract if it be unconscionable”).
Therefore, the Board’s finding in this case that it
need not examine the facts and law to determine
if the matter was unconscionable is erroneous as
a matter of law. Government breached the
contract and failed to comply with Section 14.4073 of the C.F.R and this is grounds for reformation

17
CONCLUSION
The Federal Circuit improperly ignored over
100 years of precedent set by this Court and also
failed to properly apply the FAR as it is set forth
in its basic language. The Government cannot
reap the benefit of its own mistakes and errors in
drawings just because it allows a basic site visit,
which can never fairly expose all discrepancies of
drawings. Furthermore, the clear language of
C.F.R 14.407-3 requires the Government properly
verify a mistaken bid so it does not take advantage
of unconscionable contracts. This Court should
review this important issue so it is applied
properly in the Federal Circuit, as it has been in
other districts.
Zafer respectfully requests that the petition for
a writ of certiorari be granted. The issues
presented are of critical importance and of
nationwide impact, with no opportunity for
remedy except in this Court.
This 26 th day of July 2019
Respectfully submitted,
S AM Z. G DANSKI
Counsel of Record
G DANSKI L AW PC
517 Forest Avenue
Teaneck, New Jersey 07666
(914) 589-0015
samgdanski@gdanski.com
Counsel for Petitioner

APPENDIX

Case: 17-2430

Document: 42

Page: 1

Filed: 02/12/2019

1a
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

ZAFER CONSTRUCTION COMPANY, AKA ZAFER
TAAHHUT INSAAT VE TICARET A.S.,
Appellant
v.
UNITED STATES ARMY CORPS OF ENGINEERS,
Appellee
______________________
2017-2430
______________________
Appeal from the Armed Services Board of Contract Appeals in No. 56769, Administrative Judge J. Reid Prouty,
Administrative Judge Reba Page, Administrative Judge
Richard Shackleford.
______________________
JUDGMENT
______________________
SAM GDANSKI, Gdanski & Gdanski LLP, Teaneck, NJ,
argued for appellant.
GEOFFREY MARTIN LONG, Commercial Litigation
Branch, Civil Division, United States Department of Justice, Washington, DC, argued for appellee. Also represented by ALLISON KIDD-MILLER, ROBERT EDWARD
KIRSCHMAN, JR., JOSEPH H. HUNT.

Case: 17-2430

Document: 42

Page: 2

Filed: 02/12/2019

2a
______________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (REYNA, TARANTO, and STOLL, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
February 12, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
ARMED SERVICES BOARD
OF CONTRACT APPEALS
Appeal of—

)
)
Zafer Construction Company
)
)
Under Contract No. W917PM-05-C-0005 )
ASBCA No. 56769
APPEARANCES FOR APPELLANT:
Sam Zalman Gdanski, Esq.
Gdanski & Gdanski, LLP
Teaneck, NJ
Rebia Unal, Esq.
General Counsel
APPEARANCES FOR GOVERNMENT:
Thomas H. Gourlay, Jr., Esq.
Engineer Chief Trial Attorney
James D. Stephens, Esq.
Michael A. Rea, Esq.
James A. Wallace, Esq.
Engineer Trial Attorneys
U.S. Army Engineer
District, Middle East
Winchester, VA

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

4a
OPINION BY ADMINISTRATIVE
JUDGE PAGE
This appeal arises from Contract No. W917PM05-C-0005 (the contract) between appellant, Zafer
Construction Company 1 (Zafer or appellant), and
the Afghanistan Engineering District (AED) of the
U.S. Army Corps of Engineers (Corps or
government) for design, renovation, replacement,
and repair work on a military hospital campus
operated by the Afghanistan National Army
(ANA) in Kabul, Afghanistan. After fully
performing the work, Zafer now seeks an
additional $4,104,891 (including claim preparation
costs) for renovation work in basements, rooftop
technical rooms, and other above-grade areas that
it contends were not included in its original
proposal. Appellant alleges that the omission of
this alleged additional work from its proposal
constituted a unilateral mistake in its proposal
and that the government’s acceptance of the
proposal was unconscionable. Appellant also
suggests in its trial brief that the various
subgrade and above-grade areas constitute
differing site conditions. The appeal is denied.

1

This is the name of the contractor as used in the contract
and numerous contract modifications (see, e.g., R4, tabs 515). We understand that “Zafer Taahhut Insaat ve Ticaret
A.S.,” as used by the parties, is the Turkish version of the
contractor’s name.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

5a
FINDINGS OF FACT
A. T h e A f g h a n i s t a n N a t i o n a l
Hospital in Kabul, AFG

Military

1. The Afghanistan National Military Hospital
in Kabul, Afghanistan (ANA hospital) is a campus
consisting of multiple buildings designed and
constructed by the Soviet Union from 1970-1973.
The buildings of the ANA hospital campus include
a 400-bed patient-care facility, operations and
administration buildings, a rehabilitation
building, an isolation ward, a polytechnic clinic, a
morgue, a kitchen/dining facility, a laundry
facility, a water supply facility, a sewage plant, a
central heating plant, and quarters for the
surgeon general. The ANA hospital has been in
continuous use from the time of its construction
and, over the course of the ensuing decades, its
buildings succumbed to the ravages of armed
conflict and the decay of neglect. By March 2004,
the buildings on the ANA hospital campus had
fallen into varying stages of disrepair, ranging
from poor to fair. The condition of the major
utilities infrastructure ranged from non-functional
to fair: steam heat boilers and the central heat
distribution system functioned at reduced
capacity; electrical service was deficient; water
and sewage services were deficient; and many of
the elevators on the campus were non-functional.
(Ex. A-7, 1 August 2012 Dep. of David M.
Pecharka (hereinafter ex. A-7) at 91 of 131)
2. In March 2004, the government dispatched an
assessment team comprised of architects,
engineers, and a cost estimator, all of whom were
contractors employed by Michael Baker Jr., Inc.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

6a
(Baker), to the ANA hospital to survey the site
and assess the condition of the buildings and
infrastructure. The Baker team was to prepare a
report that would allow the government to
adequately budget for and define the work
necessary to renovate and rehabilitate the ANA
hospital. (Tr. 2/30-31, 34-35, 4/129) The scope of
the team’s assessment included the following
areas and trades: water, sewer, electrical, heating,
mechanical, and architectural (ex. A-7 at 91 of
131). According to Mr. Pecharka, an architect (tr.
2/26, 44) on the Baker team, the team also took
measurements of the buildings “so that, in the
absence of the original plan documents we would
be able to do our estimates of how much, how
large the facilities that were needed renovated”
(tr. 2/33-34). Upon completing its assessment, the
Baker team furnished its report (Baker report} to
the government (tr. 2/30, 34).
3. The Baker report consisted of a Scope of Work
(Baker SOW) (see findings 4-5), Technical
Requirements (see finding 6), a Condition
Assessment Report, Condition Assessment Photos,
a Cost Estimate, a two-phase Design and
Construction Schedule (see finding 4), and several
site and floor plan sketches (see findings 7-8; ex.
A-7 at 3 of 131).
4. The Baker SOW is found at section 01010 of
the Baker report. The Baker SOW included the
following “entire campus” of ANA hospital campus
buildings:

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

7a
Building No. 1 - Hospital Patient Care
Building
Building No. 2 - Hospital Operations
Building
Building No. 3 - Hospital
Administration
Building
Building No. 4 - Isolation Ward
Building No. 5A - Kitchen
Building No. 5B - Central Heating Plant
and Laundry
Building No. 5C - Maintenance Shops
Building No. 6 - Morgue
Building No. 7 - Heating Fuel Pump
Station
Building No. 8 - Rehabilitation Building
Building No. 9 - Wastewater Treatment
Plant
Building No. 10 - Polytechnic Institute
Building No. 11 - Engineering Offices
Building No. 12 - Surgeon General
Quarters
Building No. 13 - Sewage Lift Station
Building
Building No. 14 - Command Center
(Ex. A-7 at 5 of 131) The Baker Design and

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

8a
Construction Schedule contemplated two phases
for the renovation work on the ANA hospital
campus. Phase 1 included work only on the central
steam plant (Building No. 5B), the Hospital
Patient Care Building (Building No. 1 ), and the
Hospital Operations Building (Building No. 2).
(Ex. A-7 at 122 of 131)
5. Subsection 1, ‘’General,” of the Baker SOW
requires, as relevant:
1.7 .... During the demolition phase and
prior to the start of new construction work
within individual buildings, survey the
lowest level of each building for areas of
standing water.
1 . [ 8 ] [2] N u m e r o u s f u n c t i o n a l h o s p i t a l
areas, including exit stairs, lobbies, and
corridors are currently occupied with
storage and staff personal areas.
Additionally, many patient bedrooms are
now occupied as staff offices and lounges.
At the conclusion of dewatering and
ventilation of hospital basement levels, it
is encouraged that these areas be used for
these purposes, to allow patient care and
clinical areas to more readily obtain
original functions.

2

This paragraph is numerated “1.9.” The succeeding
paragraph is “1.8,” and the one after that is also “1.9.” We
find this to be a typographical error and of no significance.
The corresponding paragraph of the SOW is numbered “1.8”
in both the solicitation (see finding 21) and the contract (see
finding 58).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

9a
(Ex. A-7 at 6 of 131) (Emphasis added)
6. The Technical Requirements are found in
section 01015 of the Baker report (ex. A-7 at 29 of
131). The Baker Technical Requirements provide
in relevant part:
1.12 ORIGINAL PERFORMANCE CRITERIA
Unless otherwise indicated ...., the Contractor
shall design and build renovations to obtain
original performance criteria .... Hospital
engineering personnel shall grant access to full
original drawing and specification documentation
in Russian.
(Ex. A-7 at 30 of 131) (Emphasis added)
7. The Baker sketches are eight sketches of the
ANA hospital campus, consisting of a mix of
utility site plans and partial floor plans for some
of the buildings on the ANA hospital campus. The
utility site plans showed the general location of
water, sewer, steam, and electrical lines at the
ANA hospital campus (ex. A-7 at 124-26 of 131; see
also Fig. 1, below). The partial floor plans
consisted of the first three “floors” of Building No.
1, Building No. 2, and Building No. 3 (ex. A-7 at
127 of 131; see also Fig. 2, below); a “typical floor
plan” for the Building No. 1 showing flooring and
other design features (ex. A-7 at 130 of 131)
(emphasis added); and floor plans for Buildings
Nos. 5A, 5B, and 5C (ex. A-7 at 131 of l31; see also
Fig. 3, below). The term “floor” appears in several
of the Baker sketches (e.g., ex. A-7 at 127-29, 130,
131 of 131); the term “story” does not appear in
any.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

Figure l—Baker sketch, electrical site plan (ex. A-7
at 126 of 131)

10a

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

Figure 2—Baker sketch, “First Floor,” Buildings 1, 2,
3 (ex. A-7 at 127 of 131)

11a

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

Figure 3—Baker sketch, Buildings 5A, 5B, 5C (ex.
A-7 at 131 of l3l)

12a

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

13a
8. No floor plan sketches were provided for any
of the other buildings on the ANA hospital
campus, although all of the campus buildings
appear in the site plan-sketches (e.g., Fig. 1). The
scale of the sketches is small, printed on standard
letter-sized paper, 8.5 inches by 11 inches, in
which 1 inch equals 150 meters for site plans (e.g.,
Fig. 1) and approximately 20 meters for the floor
plans for Building Nos. 1, 2, and 3 (e.g., Fig. 2).
Buildings are denoted on the site plan sketches by
diagonal lines (hatching) along the perimeter of
the building’s sides, except for Building No. 10,
the Polytechnic Clinic, which has no hatching on
any of its sides. Because Building No. 10 lacks
diagonal hatching on its sides, it is not clear from
the site plan sketches whether the building
surrounds an open courtyard or is itself
surrounded by a roadway or parking lot. (Ex. A-7
at 124-26 of 131; see also Fig. 1) The floor plan
sketches for Building Nos. 5A and 5B depict
closely-formed and repeated straight lines (ex. A-7
at 131 of 131; see also Fig. 3). This is a technical
symbol that is commonly used to denote
stairwells.
9. The government relied upon the Baker report
to prepare the request for proposal that led to the
contract (tr. 4/129, 132-33). However, rather than
use the Baker report’s two-phase Design and
Construction Schedule (see finding 4), the
government combined the phases, designating the
phase 1 buildings as the “base bid” and the phase
2 buildings as “option bids” (tr. 4/133; see also
finding 10).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

14a
B. Procurement Background
10. The ANA hospital rehabilitation project was
contemplated as a design-build effort requiring
the contractor to provide design, renovation,
replacement, and repair work (R4, tab 5 at l, 10432).3 The “base bid” of the project consisted of the
following buildings:
Building No. l - Hospital Patient Care
Building
Building No. 5A - Kitchen
Building No. 5B - Main Electrical Gear
and Laundry
Building No. 7 - Heating Fuel Pump
Station
Building No. 9 - Wastewater Treatment
Plant
Building No. 13 - Sewage Lift Station
Building
(R4, tab 4 at 3, 154) The following buildings and
project were to be proposed as “options”:
Option 1 - Building No. 2 Hospital Operations Building
Option 2 - Building No. 3 Hospital Administration
Building

3

The Rule 4 files are consecutively numbered. At the
hearing (tr. 5/34), the Board stated that it would just cite to
Rule 4 and not annotate “supp. R4” or “app. supp. R4” in its
citations.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

15a
Option 3 - Building No. 4 Isolation Ward
Option 4 - Building No. 8 Rehabilitation Building
Option 5 - Building No. 10 - Polytechnic
Institute[4]
Option 6 - Building No. 6 Morgue
Option 7 - Building No. 11 Engineering Offices
Option 8 - Building No. 5C Maintenance Shop
Option 9 - Building No. 12 Surgeon General Quarters
Option 10 - Building No. 14 Command Center
Option 11 - Foundation for phone
communication and
computers
(R4, tab 4 at 3, 154-55)

4

Building No. 10 is referred to as the “Polytechnic Institute”
in the solicitation bid schedule (R4, tab 4 at 3), paragraph
1.5 of the solicitation SOW (id. at 154), the CLIN description
for CLIN 0011 of the contract (R4, tab 5 at 6), and paragraph
1.5 of the contract SOW (id. at 133). However, Building No.
10 was identified throughout the rest of the solicitation and
contract SOWs and in the Baker sketches as the “Polytechnic
Clinic” (see findings 8, 22, 24; Fig. 1). We refer to Building
No. 10 as the Polytechnic Clinic.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

16a
11. The government elected to conduct the
source selection process as a competitive,
negotiated procurement pursuant to the
procedures set forth in FAR Part 15 (R4, tab 4 at
1-13, 18-21; tr. 4/133-34). The proposal-evaluation
responsibilities of the Source Selection Evaluation
Team (SSET) were divided between a non-pricing
technical evaluation team and a price evaluation
team (R4, tabs 331, 332; tr. 4/144, 149). Among
the members of the non-pricing technical
evaluation team was Ms. Elizabeth Carver (R4,
tab 331 at 1).
12. The price evaluation team was chaired by
Mr. William D. Mullery (R4, tab 332; tr. 4/140,
144). The contracting officer (CO) and Source
Selection Authority was Dr. Sherry F. Gaylor5 (R4,
tabs 331, 332; tr. 3/245).
13. On 1 May 2004, the government issued a
pre-solicitation notice for the project (R4, tab 56).
On 6 June 2004, the government issued a revised
notice with a new Request for Proposals (RFP)
number which was otherwise identical to the 1
May 2004 notice (R4, tab 57).
C. The Solicitation
14. On 10 July 2004, the government issued
RFP No. W917PM-04-R-0011 (solicitation) (R4, tab
16). Among those who received the solicitation
were two of Zafer’s employees (id.; tr. 1/108,
2/136-37).

5

Dr. Gaylor was identified in the source selection documents
as “Ms.” We refer to her as CO Gaylor.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

17a
15. The solicitation provided that award would
be made on the basis of a best-value trade-off. The
technical proposal would far outweigh the price:
“The four non-pricing factors are of equal
importance in the evaluation and selection
processes. The four non-pricing factors, taken as a
group, have significantly more weight than the
pricing factor in the evaluation and selection
process.” The solicitation also informed potential
offerors of the government’s intent to award
without discussions, although the government
reserved the right to enter into discussions if
deemed appropriate. (R4, tab 4 at 5)
16. The solicitation required offerors to submit
an overarching bid schedule consisting of contract
line item numbers (CLINs) and price amounts for
each of the base and option bid buildings, as well
as separate technical and price proposals (R4, tab
4 at 3-12). The technical evaluation criteria
included consideration of the offeror’s design
capabilities (id. at 9). With respect to the price
evaluation factors, the government cautioned
potential offerors: “The Government will not be
responsible for any misunderstandings concerning
the basis for costs proposed by an offeror that
results [sic] from that offeror’s failure to provide
written descriptions that are clear, complete, and
easily understood” (id. at 12).
17. Among the solicitation’s provisions and
clauses set out in full text were FAR 52.215-1,
INSTRUCTIONS TO OFFERORS—COMPETITIVE
A CQUISITION (J AN 2004) (R4, tab 4 at 18); FAR
52.236-2, D I F F E R I N G S I T E C O N D I T I O N S (APR
1984) (id. at 80-81); and FAR 52.236-3, S I T E

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

18a
INVESTIGATION AND CONDITIONS AFFECTING THE
WORK (APR 1984) (id. at 81). Clauses FAR 52.2362 and 52.236-3, along with FAR 52.233-1,
D ISPUTES (J UL 2002), were also set forth in full
text in the ultimate contract (R4, tab 5 at 57-60).
18. The Instructions to Offerors provision
states in pertinent part:
(a) Definitions. As used in this provision—
“Discussions” are negotiations that occur
after establishment of the competitive
range that may, at the Contracting
Officer’s discretion, result in the offeror
being allowed to revise its proposal.
....
“Proposal modification” is a change made
to a proposal before the solicitation’s
closing date and time, or made in’
response to an amendment, or made to
correct a mistake at any time before
award.
“Proposal revision’’ is a change to a
proposal made after the solicitation
closing date, at the request of or as
allowed by a Contracting Officer as the
result of negotiations.
“Time”, if stated as a number of days, is
calculated using calendar days, unless
otherwise specified, and will include
Saturdays, Sundays, and legal holidays.
However, if the last day falls on a
Saturday, Sunday, or legal holiday, then
the period shall include the next working
day.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

19a
....
[(c)](3) Submission, modification, or
revision, of proposals.
(i) Offerors are responsible for submitting
proposals, and any modifications, or
revisions, so as to reach the Government
office designated in the solicitation by the
time specified in the solicitation ....
(ii)(A) Any proposal, modification, or
revision received at the Government office
designated in the solicitation after the
exact time specified for receipt of offers is
“late” and will not be considered unless it
is received before award is made, the
Contracting Officer determines that
accepting the late offer would not unduly
delay the acquisition; and—
(1) If it was transmitted through an
electronic commerce method authorized by
the solicitation, it was received at the
initial point of entry to the Government
infrastructure not later than 5:00 p.m.
one working day prior to the date
specified for receipt of proposals; or
(2) There is acceptable evidence to
establish that it was received at the
Government installation designated for
receipt of offers and was under the
Government’s control prior to the time set
for receipt of offers; or
(3) It is the only proposal received.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

20a
(B) However, a late modification of an
otherwise successful proposal that makes
its terms more favorable to the
Government, will be considered at any
time it is received and may be accepted.
....
(f) Contract award. (1) The Government
intends to award a contract or contracts
resulting from this solicitation to the
responsible offeror(s) whose proposal(s)
represents the best value after evaluation
in accordance with the factors and
subfactors in the solicitation.
....
(4) The Government intends to evaluate
proposals and award a contract without
discussions with offerers (except
clarifications as described in FAR
15.306(a)). Therefore, the offeror’s initial
proposal should contain the offeror’s best
terms from a cost or price and technical
standpoint.
(R4, tab 4 at 18-20) (Emphasis added)
19. The Differing Site Conditions clause
provides as relevant:
(a) The Contractor shall promptly, and before
the conditions are disturbed, give a written notice
to the Contracting Officer of
(1) subsurface or latent physical conditions
at the site which differ materially from
those indicated in this contract, or

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

21a
(2) unknown physical conditions at the
site of an unusual nature, which differ
materially from those ordinarily
encountered and generally recognized as
inhering in work of the character provided
for in the contract.
....
(c) No request by the Contractor for an
equitable adjustment to the contract
under this clause shall be allowed, unless
the Contractor has given the written
notice required; provided, that at the time
prescribed in (a) above for giving written
notice may be extended by the
Contracting Officer.
(R4, tab 4 at 80-81, tab 5 at 59) (Emphasis added)
20. The Site Investigations clause imposes on
the contractor an affirmative duty to perform the
following before contract award: take steps
reasonably necessary to ascertain the nature and
location of the work; investigate conditions, both
general and local, which could affect the work or
its cost; and inspect the site so as to ascertain, to
the extent reasonably practicable, the character,
quality, and quantity of surface and subsurface
materials or obstacles to be encountered. The Site
Investigations clause states in relevant part:
(a) The Contractor acknowledges that it
has taken steps reasonably necessary to
ascertain the nature and location of the
work, and that it has investigated and
satisfied itself as to the general and local
conditions which can affect the work or its
cost, including but not limited to ....

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

22a
....
(4) the conformation and conditions of the
ground; and
(5) the character of equipment and
facilities needed preliminary to and
during work performance. The Contractor
also acknowledges that it has satisfied
itself as to the character, quality, and
quantity of surface and subsurface
materials or obstacles to be encountered
insofar as this information is reasonably
ascertainable from an inspection of the site
.... as well as from the drawings and
specifications made a part of this contract.
Any failure of the Contractor to take the
actions described and acknowledged in
this paragraph will not relieve the
Contractor from responsibility for
estimating properly the difficulty and cost
of successfully performing the work, or for
proceeding to successfully perform the
work without additional expense to the
Government.
(b) The Government assumes no
responsibility for any conclusions or
interpretations made by the Contractor
based on the information made available
by the Government.
(R4, tab 4 at 81, tab 5 at 59-60) (Emphasis added)
21. Section 01010 of the solicitation is the scope
of work (SOW).6 Subsection 1, “General,” states in
relevant part:

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

23a
1.7 Provide one self-contained, portable
sump pump capable of handling liquids
and semi-solids, with minimum 1000W
(1.34 HP) motor. Provide four (4)
watertight, wheeled containers of
minimum 0.159 m3 (42 gallon) capacity
with sealable lids. During the demolition
phase and prior to the start of new
construction work within individual
buildings, survey the lowest level of each
building for areas of standing water.
Dewater any such areas found and
transport
materials
removed
to
Wastewater Treatment Plant for disposal.
Upon completion of dewatering activity,
clean affected floor and wall areas with
detergent-based solution, followed by
cleaning with a disinfectant approved by
the Contracting Officer. Provide portable
fans to aid in drying affected areas. Upon
completion of dewatering activities, clean
and disinfect the sump pump and
containers, then tum over to Contracting
Officer.
1.8 Numerous functional hospital areas,
including exit stairs, lobbies, and
corridors are currently occupied with
storage and staff personal areas.
Additionally, many patient bedrooms are
now occupied as staff offices and lounges.
At the conclusion of dewatering and

6

In preparing the SOW, the government relied upon the
Baker SOW (see finding 9).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

24a
ventilation of hospital basement levels, it
is encouraged that these areas be used for
these purposes, to allow patient care and
clinical areas to more readily obtain
original functions. The basement area may
also be needed for running the new
utilities (heating hot water, domestic hot
water, power, etc).
(R4, tab 4 at 18, 81, 155, 183)(Italics added)
22. Subsection 2 of the solicitation SOW, “Items
of Work,” generally describes the scope of the work
to be performed for each of the buildings on the
ANA hospital campus, both “base bid” and “option
bid” buildings (see finding 10). 7 Subsection 2
provides, as relevant:
2. Items of Work
....
2.7 Patient Care Building (Building
No. 1): Renovate the eight-story Hospital
Patient Care Building.
2.8 (Option 1) Hospital Operations
Building (Building No. 2): Renovate the
three-story Hospital Operations Building.

7

The term “story,” as used in paragraphs 2.7 and 2.8 of the
solicitation SOW, does not appear in subsection 4 of the
SOW, “Design Notes—Architectural” (see finding 23; R4, tab
4 at 158-61), nor in subsection 5, “Design Notes—
Mechanical” (see finding 24; R4, tab 4 at 162-63).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

25a
2.9 Kitchen (Building No. 5A): Renovate
exterior and interior walls, ceilings,
floors, windows, doors, etc. Replace walkin food refrigeration units, stand-alone
meat freezer, plumbing systems and
fixtures, heating system, ventilation and
exhaust fans, and electrical systems as
required at Kitchen ....
2.10 Laundry (Building No. 5B): Renovate
exterior and interior walls, ceilings,
floors, windows, doors, etc. Replace
plumbing systems and fixtures, heating
system, ventilation and exhaust fans, and
electrical systems as required at Laundry.
2.11 (Option 6) Morgue (Building No. 6):
Renovate exterior and interior walls,
ceilings, floors, windows, doors, etc.
Replace air-conditioning and ventilation
system, and required electrical service, for
the cadaver storage areas at Morgue.
Replace plumbing system and fixtures,
heating system, ventilation and exhaust
fans, and electrical systems.
2.12 (Option 3) Isolation Ward (Building
No. 4): Renovate exterior and interior
walls, ceilings, floors, windows, doors, etc.
Replace plumbing systems and fixtures,
heating system, ventilation and exhaust
fans, and electrical systems as required at
Isolation Ward.
2.13 (Option 5) Polytechnic Clinic
(Building No. 10): Renovate exterior and
interior walls, ceilings, floors, windows,

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

26a
doors, etc. Replace plumbing systems and
fixtures, heating system, ventilation and
exhaust fans, fire hoses/valves in existing
fire hose cabinets, and electrical systems
as required at Polytechnic Clinic.
2.14 (Option 4) Rehabilitation Building
(Building No. 8): Renovate exterior and
interior walls, ceilings, floors, windows,
doors, etc. Replace plumbing systems and
fixtures, heating system, ventilation and
exhaust fans, and electrical systems as
required at Rehabilitation Building.
2.15 (Option 2) Hospital Administration
Building (Building No. 3): Renovate
exterior and interior walls, ceilings,
floors, windows, doors, etc. Replace
plumbing systems and fixtures, heating
system, ventilation and exhaust fans, fire
hoses/valves in existing fire hose cabinets,
and electrical systems as required at
Hospital Administration Building.
2.16 (Option 7) Engineering Offices
(Building No. 11): Renovate exterior and
interior walls, ceilings, floors, windows,
doors, etc. Replace plumbing systems and
fixtures, heating system, ventilation and
exhaust fans, and electrical systems as
required at Engineering Offices.
2.17 Heating Fuel Pump Stations
(Building No. 7): Replace fuel distribution
pump motors and controls as required at
Heating Fuel Pump Station.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

27a
2.18 (Option 9) Surgeon General Quarters
(Building No. 12): Renovate exterior and
interior walls, ceilings, floors, windows,
doors, etc. Replace plumbing systems and
fixtures, provide new heating system and
connect to steam tunnel. provide new
ventilation and exhaust system, and
replace electrical systems as required at
Surgeon General Quarters.
2.19 (Option 8) Maintenance Shops
(Building No. 5C): Renovate exterior and
interior walls, ceilings, floors, windows.
doors, etc. Replace plumbing systems and
fixtures, heating system, ventilation and
exhaust fans, and electrical systems as
required at Maintenance Shops.
2.20 Sewage Lift Station Building
(Building No. 13): Replace existing
heating system in kind.
2.21 Wastewater Treatment Plant
(Building No. 9): Provide heating and
ventilation system as required by process
systems.
2.22 (Option 10) Command Center
(Building No. 14): Renovate exterior and
interior walls, ceilings, floors, windows,
doors, etc. Replace heating, ventilation,
plumbing and electrical systems.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

28a
(R4, tab 4 at 156-157) (Bold in original; italics
added) In subsection 2, only paragraphs 2.7
(Building No. I) and 2.8 (Building No. 2) specify
the number of stories in any of the ANA hospital
campus buildings. None of the paragraphs in
subsection 2 mention basements. (Id.)
23. Where relevant, subsection 4 of the
solicitation SOW uses the term “floor,” as
indicated:
4. Design Notes—Architectural
....
4.1 Hospital Patient Care Building:
the following design considerations shall
be incorporated into the hospital patient
care building design.
....
4.1.1.11 Repair and replace flat roof area
and metal roof edge at seventh floor
balcony roof. Repair and replace quarry
tile flooring and metal edges at balcony
floors.
....
4.1.5 Renovate deficient interior and
exterior areas of balance of base bid
buildings .... in a similar manner to the
patient care building areas. Renovate wet
areas as occur at laundry, kitchen et al[.]
in manner indicated. Omit membrane
beneath tile flooring at ground floor wet
areas.
....

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

29a
4.3 (Options 2 thru 10) Balance of
hospital campus buildings: Renovate
deficient interior and exterior areas of
balance of hospital campus buildings in
similar manner to patient care building
areas. Renovate wet areas as occur at
laundry, kitchen et al[.] in manner
indicated. Omit membrane beneath tile
flooring at ground floor wet areas.
(R4, tab 4 at 158-61) (Italics added) None of the
paragraphs in subsection 4 mention basements.
Notably, subsection 4 refers to ‘“ground floor”
work. (Id.)
24. Subsection 5 of the solicitation SOW,
“Design Notes—Mechanical,” does not use the
term “story,” as used in subsection 2, or the term
“ground floor” used in subsection 4. Subsection 5
instead uses the term “first floor” throughout, as
shown in the following relevant excerpts:
5. Design Notes—Mechanical
....
5.2.2 Hospital Patient Care Building
(Building No. 1):
5.2.2.1 [Heating, Ventilation, and AirConditioning (HVAC)] Systems
5.2.2.1.1 Provide a new mechanical room
on the first floor for the heating hot water
and the domestic hot water system
equipment ....

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

30a
5.2.3 (Option 1) Hospital Operations
Building (Building No. 2):
5.2.3.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.5 (Option 6) Morgue (Building No.
6):
5.2.5.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.6 Kitchen (Building No. 5A):
5.2.6.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.7 Laundry (Building No. 5B):
5.2.7.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.8 (Option 5) Polytechnic Clinic
(Building No. 10):

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

31a
5.2.8.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.9 (Option 2) Hospital Administration
Building (Building No. 3):
5.2.9.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.10 (Option 9) Surgeon General
Quarters (Building No. 12):
5.2.10.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.11 (Option 7) Engineering Offices
(Building No. 11):
5.2.1 1.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.12 (Option 3) Isolation Ward
(Building No. 4):
5.2.12.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

32a
the domestic hot water system equipment.
....
5.2.13 (Option 8) Maintenance Shops
(Building No. 5C):
5.2.13.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
....
5.2.14 (Option 4) Rehabilitation
Building (Building No. 8):
5.2.14.1 HVAC Systems
Provide a new mechanical room on the
first floor for the heating hot water and
the domestic hot water system equipment.
(R4, tab 4 at 161-63, 165-73) (Italics added)
25. Basements are mentioned in two paragraphs
of subsection 5, as follows:
5.2.2 Hospital Patient Care Building
(Building No. 1):
....
5.2.2.2 Plumbing Systems
....
5.2.2.2.4 Replace all existing sanitary
drains and vent piping, from the
individual fixtures to the existing vertical
risers; replace all sanitary waste lines in
the basement; use materials and
procedures as specified ....

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

33a
....
5.2.3 (Option 1) Hospital Operations
Building (Building No. 2):
5.2.3.1 HVAC Systems
Provide a new mechanical room.... The
mechanical room can also be located in the
basement if a permanenl access way is
provided for removal and replacement of
large mechanical equipment.
(R4, tab 4 at 162-63) (Italics added)
26. Paragraph 5.1.4 of the solicitation referred
potential offerors to section 169991, Mechanical
Technical
Requirements,
for
technical
requirements associated with the work to be
performed under the contract (R4, tab 4 at 162).
The Technical Requirements state that the
contractor shall obtain original performance
criteria as described and, accordingly, shall have
access to full original drawings and specifications,
as follows:
1. GENERAL
....
1.12 ORIGINAL
CRITERIA

PERFORMANCE

Unless otherwise indicated (by design
calculations, standard engineering
practice, or specific reference), the
Contractor shall design and build
renovations to obtain original performance
criteria (i.e., products and craftsmanship
shall be similar in quality, durability,
ease of maintenance, and physical

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

34a
characteristics to the existing building
components and systems). Hospital
engineering personnel shall grant access
to full original drawing and specification
documentation in Russian.[8]
(Id. at 181, 183) (Italics added) Additionally,
specific requirements applied to running HVAC
system pipes through “floors above grade,” as
follows:
5. MECHANICAL
....
5.2 HVAC
SYSTEMS
REQUIREMENTS
....

DESIGN

5.9.6 HVAC PIPING TECHNIQUES:
...Provide a fire seal where pipes pass
through firewall, fire partitions, fire rated
pipe chase walls, or floors above grade.
(Id. at 200, 202, 212) (Italics added)
D. Site Visits
27. The record does not include any
contemporaneous documentation to evidence that
a site visit or visits occurred or who among the
offerors attended or did not attend. The
government alleged in post-award correspondence,
dated 4 November 2004, that site visits occurred
on 2 and 9 July 2004 and that appellant’s

8

These are the “Russian drawings” (R4, tab 4 at 183; tr.
3/19-20; see findings 6, 29, 34, 36-41, 60).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

35a
employees had attended (R4, tab 24 at 1). On 21
December 2004, several weeks after being
reminded by appellant that the solicitation was
not issued until 10 July 2004 (R4, tab 25), the
government acknowledged that it had stated the
dates of the site inspections incorrectly and stated
that [t]he actual site inspections were scheduled
on July 12, 2004 and July 19, 2004” (R4, tab 27 at
1) (emphasis added). Witnesses for the
government testified that at least one site visit
occurred (tr. 4/30, 55-56, 139-40), and that it was
attended by many (12-15) employees of potential
offerors (tr. 4/57-58). Mr. William Mullery, the
government’s program manager for the ANA
hospital rehabilitation project, testified to meeting
prospective offerors at an entry control point near
the entrance to the ANA hospital campus (tr.
4/139-140). Mr. Mullery testified that he
remembered checking the names of contractor
employees against a screening list (tr. 4/138-39),
but not the date that the site visit occurred (tr.
4/138). Another of the government’s witnesses,
Mr. Webster Shipley III, had no role with the ANA
hospital rehabilitation project other than to
volunteer one day to accompany the group on a
site visit to the ANA hospital campus (tr. 4/29-30).
He testified extensively regarding the route taken
by the site visit and was able to recount in detail
what a participant in the site visit would have
been able to see and assess (tr. 4/50-59, 64-68, 7682). According to Mr. Shipley, the site visit must
have occurred between his organization’s change
of command on 4 July 2004 and two weeks prior to
his departure from Afghanistan on 1 August 2004

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

36a
(tr. 4/100-01). He was unable to be more specific:
“we worked every day essentially in that
environment, so I couldn’t tell you what day of the
week it was, either” (tr. 4/30). The CO who
conducted the site investigation, Mr. Barr, passed
away prior to giving testimony (tr. 4/82-83).
28. Despite the lack of specificity in the record
as to the date the site visit or visits occurred, we
find the government’s witnesses to be credible. We
find that at least one government-sponsored site
visit of the ANA hospital campus occurred
sometime between when the solicitation was
issued on 10 July 2004 and 18 July 2004, and that
it was attended by representatives of potential
offerors.
29. According to Mr. Shipley, he and CO Barr
left the government’s program manager, Mr.
Mullery, at the entry control point at the entrance
to the ANA hospital campus. Mr. Mullery was
responsible for checking in potential offerors; Mr.
Shipley and CO Barr waited for the potential
offerors to join them under an awning at the west
end of the Hospital Patient Care Building
(Building No. 1). (Tr. 4/54-56; see also Fig. 1,
above) Once the potential offerors had assembled,
the tour proceeded to go through the main
entrance of Building No. 1 and into the lobby,
where CO Barr gave his introduction to the site
visit (tr. 4/57; see also Fig. 2, above). Following
introductions, the tour went from floor to floor in
Building No. 1, using alternatively the elevators
or the stairs, and visited the basement as well (tr.
4/56-59). The tour crossed over the road between

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

37a
Building No. 1 and the Hospital Operations
Building (Building No. 2) using the elevated
walkway. The group spent approximately 20
minutes walking through Building No. 2; it is not
clear from Mr. Shipley’s testimony whether the
tour included the basement of Building No. 2, but
the tour exited Building No. 2 at the southeast
comer of the building. (Tr. 4/68) They then walked
to the southwest comer of the building where they
could view the Rehabilitation Building (Building
No. 8) (tr. 4/77). The tour then turned completely
about and proceeded eastwards past Building Nos.
5A, 5C, and 5B (tr. 4/77) to the Engineering
Offices (Building No. 11). There, “we actually got
to view into several of the buildings, and we saw
that the engineers .... actually had the old Russian
drawings[9] on the walls.” (Tr. 4/78) From Building
No. 11, the tour walked east a little farther
towards the Wastewater Treatment Plant
(Building No. 9). They turned around after about a
hundred meters and walked back past the north
side of Building No. 11 and then past the south
side of the Morgue (Building No. 6). (Tr. 4/79)
Proceeding past the south side of the Central
Heating Plant and Laundry (Building No. 5B), the
Maintenance Shops (Building No. 5C), and the
Kitchen/Dining Facility (Building No. 5A) (tr.
4/79-80), the tour continued to walk toward the
Hospital Administration Building (Building No. 3)
9

Mr. Shipley testified that the “old Russian drawings on the
walls” of the engineering offices were drawings of “[t]he
[ANA] hospital grounds of themselves in the buildings. They
were the utility plans and assorted documents.” (Tr. 4/78; see
also findings 26, 36-41, the discussion of the “Russian
drawings”)

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

38a
(tr. 4/80). The testimony is not clear as to whether
the tour actually entered Building Nos. 5A, 5B,
5C, or 6. The tour did enter Building No. 3,
however, and walked the first and second floors
(tr. 4/81-82). After touring Building No. 3, the
group returned to the awning at the west end of
Building No. 1 where the CO pointed out to the
Surgeon General’s Quarters (Building No. 12) to
the west (tr. 4/82; see also ex. A-7 at 124-26 of 131;
Fig. 1, above). The tour ended there,
approximately three hours after it began (tr. 4/82,
140).
30. We find that a site-visit participant would
have had occasion to visually assess most of the
accessible ANA hospital campus grounds (tr.
4/67), including the project buildings (R4, tabs 3948). Although the campus tour included the
interior of at least some of the buildings, including
basement areas (tr. 3/17, 4/67; R4, tab 39 at 1314), we find that the testimony was insufficiently
definite for us to find that the tour included every
project building or basement. In particular, the
government’s witness discussed “proceeding past”
Building Nos. 5A, 5B, 5C, and 6, while at the same
time discussing “actually going into” Building Nos.
1, 2, 3, and 9. We find that the tour went inside
the buildings specified, Building Nos. 1, 2, 3, and
9. Moreover, the government’s witness does not
mention the Polytechnic Clinic (Building No. 10).
We are unable to conclude that potential offerors
were given an interior visit of Building No. 10 or
that the site visit of the other project buildings
was sufficient to inform potential offerors that
Building No. 10 had a basement and enclosed an
open area (see tr. 2/244-46; compare findings 38-

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

39a
39). While there is no proof that an interior visit
of Building No. 10 occurred, the purpose of the
site visit was to give potential offerors the
opportunity to view the buildings on the ANA
hospital campus and make such inquiries as
would help them prepare their proposals. We find
that a potential offeror participating in the site
visit could have either observed the multiple
above-grade floors of Building No. 10 from various
vantage points on the tour or asked CO Barr
questions about it.
31. Zafer did not attend a government-sponsored
site visit (tr. 2/148). Zafer’s chief executive officer
(CEO), Mr. Necati Yagci, testified that Zafer
generally attends government-sponsored site
visits when they are offered (tr. 3/199-200).
Witnesses for appellant and for the government
alike testified that, in their experience, when a
site visit is scheduled the date and time of the
visit is specified somewhere in the RFP (tr. 2/148,
3/200, 4/90-91). The instant RFP, however,
contains no mention of any site visit (R4, tab 4). It
appears, from the government’s witness
testimony, that a request for information was sent
to potential offerors in order to make security
arrangements for a site visit (tr. 4/138), but the
record does not reflect whether appellant received
an invitation.
32. Despite its affirmative obligation under the
Site Investigations clause to inspect the site
(finding 20), the record does not reflect that Zafer
made any attempt to coordinate its own site visit
with either the government or the ANA prior to
submitting its proposal (tr. 3/16, 199). Throughout
the source selection it had a workforce located in

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

40a
Kabul and the contractor was in constant contact
with its personnel (tr. 1/128, 3/14); however, Zafer
has presented no evidence that any of its
workforce visually assessed the site. Zafer’s CEO,
Mr. Yagci, testified that Zafer did not conduct an
independent site visit prior to award (tr. 3/127,
199, 211). He explained that, in his view, the Site
Investigations clause placed no “mandatory
obligation” upon Zafer to visit the site before
preparing its proposal (tr. 3/211), Zafer’s CEO
credits himself as “one of the best in Turkey that
knows about those [FAR) clauses” (tr. 3/213). He
testified to his understanding that the site
investigations discussed in the Site Investigations
clause do not require an actual visit to the site
itself (tr. 3/215). It was Mr. Yagci’s opinion that
site visits are more about general environmental
and physical characteristics and circumstances
than inquiring into specific questions about the
SOW:
[The Site Investigations clause] tells
you about the conditions, in which
circumstances you are going to work. [It]
doesn’t tell you about the scope of the
work. So, that is the difference.
So, site investigation, conditions
affecting the work, you can get it even
from—you get on the website and you can
get it from CIA fact book, about countries,
that what is the currency rate, what is the
inflation in the country, what is the
population, what is the energy problems?
Is there sufficient water, sufficient
electricity?

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

41a
So, [the Site Investigations clause] tells
you about general information about the
country. What you are talking about the
site visit, there is more related with the
scope of work. So, site visit, even right
now, you can just make a scope of work
and you want me to price it, anywhere in
the world, and I can go and price it.
We have the know-how. We know that
we have the database. We know how to
build prices. We know how to build the
risks and everything. So, we are—we have
done it many times, hundred times,
maybe thousand times, we have done it,
everywhere.
(Tr. 3/214-15) According to Mr. Yagci, Zafer never
requested a site visit (tr. 3/199).
E. “Russian” Drawings
33. On 14 July 2004, the government
transmitted the Baker sketches to potential
offerors, including Zafer’s employees (R4, tab 17;
see also R4, tab 345, app’x B at 239-54; ex. A-7 at
124-31 of 131; findings 7-8). The government’s 14
July 2004 transmission did not include the
“Russian drawings” (see findings 6, 29, 34, 37-40,
60; R4, tab 17).
34. The “Russian drawings” are discussed in the
Baker report (finding 6) and section 169991 of the
solicitation. These drawings include sketches of
the buildings and the surrounding campus.
(Findings 26, 29) One of the government’s
witnesses, Mr. Shipley, testified to seeing the
Russian drawings mounted on the walls of the

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

42a
engineering offices during a site visit of the ANA
hospital campus (finding 29). The Russian
drawings were provided to the Board as part of
appellant’s supplement to the Rule 4 file (tr. 5/2731). These consist of the original, Soviet as-built
drawings and specification documentation in
Russian (findings 26, 29, 37; tr. 2/187-88, 5/30).
The Russian drawings appear to be voluminous,
highly-detailed, and specific. Appellant had, at
some point, translated portions of the drawings
into English; these translations are handwritten
directly onto the drawings. However, the drawings
are not accompanied by a certified English
translation.10 (R4, tabs 341-C, 341-D)
35. There is no evidence that Zafer made any
attempt to obtain the Russian drawings from
either the government or the ANA prior to
submitting its proposal. Although Mr. Onder
Tumer, Zafer’s government-project coordinator,
testified that he was not involved in preparing the
proposal (tr. 3/7), he also testified that, to the best
of his knowledge, Zafer did not ask the
government for the Russian drawings prior to
submitting its proposal; that the government did
not provide the Russian drawings with the
solicitation materials; and that he was “pretty

10

Accordingly, the government objected to their admission
(tr. 2/192; 5/28). The Board admitted the Russian drawings
with the understanding that it would not unilaterally
attempt to interpret the Russian in the drawings, would
disregard the handwritten translations, and would consider
only the drawings themselves, particularly the sketches of
the buildings, and Mr. Turner’s testimony describing the
drawings (tr. 2/192-93, 5/31).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

43a
sure” that Zafer did not attempt to contact the
ANA to obtain the drawings before submitting its
proposal because Zafer “never got into contact
with
the
users,
engineers
or
users,
administration” (tr. 3/19-20). Zafer’s CEO, Mr.
Yagci, whose pre-award involvement with the
proposal was limited to reviewing it “in general”
and approving it for submission to the government
(tr. 3/163-64, 208; see also findings 47-48),
testified that the proposal preparation team relied
only on the Baker sketches and the
“specifications” (tr. 3/176).
36. According to Mr. Turner, appellant obtained
the Russian drawings from the government during
appellant’s post-award site assessment (tr. 2/18788). Mr. Turner testified that there are “Russian
drawings of each and every building in the scope
of work” (tr. 2/198). Upon receiving the Russian
drawings, appellant’s site assessment team took
some notes, conducted its own site survey, took
measurements of the buildings, and prepared its
own drawings (tr. 2/194, 198-99).
37. Without a certified English translation of
the Russian drawings, the Board is unable to
understand the writing and descriptions thereon.
Many of the drawings are virtually
indistinguishable, and although the buildings in
the drawings appear to have numbers along some
of their sides that could denote measurements,
they are unfortunately lacking any unit of
measure that we can discern. For instance, one
small portion of the bottom right-hand corner of
the building in a Russian drawing labeled “7-0B-6”
is marked “6000” (R4, tab 341-D, subtab 8), and

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

44a
we are unable to ascertain what this denotes.
Neither can we reliably determine the
measurements of any of the buildings from the
Russian drawings. Nonetheless, we find that a
potential offeror possessing the Russian drawings
could discern enough information to gain a
reasonably accurate understanding of the
structural features of the pertinent buildings (e.g.,
whether a particular building has multiple floors).
This is because, while the writing on the
·drawings is in Russian, the Russian drawings
feature a number of commonly-used technical
symbols, such as that denoting stairwells, which
convey meaning even without certified
translations. The Russian drawings “7-0B-4,” “70B-5,” “7-0B-6,” “7-0B-7,” and “7-0B-8,” discussed
below (finding 38), are illustrative.
38. The building depicted in Russian drawings
“7-0B-4,” “7-0B-5,” “7-0B-6,” “7-0B-7,” and “7-0B8” possesses a unique distinguishing feature: an
open area in the center (R4, tab 341-D, subtab 8).
Looking more closely at Russian drawing “7-0B-6,”
we can make out three separate stairwells: two
along the lowermost corridor, and one at the
center of the uppermost corridor (R4, tab 341-D).
Comparing Russian drawing “7-0B-6” to “7-0B-5,”
we find that the open area in the center of the
building appears in both drawings. We also
discern the three stairwells that are common to
Russian drawing “7-0B-6,” as well as an additional
stairwell in the center of the left-hand corridor
(id.). We find that “7-0B-5” depicts the first (i.e.,
ground) floor of the building, while “7-0B-6”
depicts an upper floor. Russian drawing “7-0B-7”

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

45a
is quite similar to Russian drawing “7-0B-6” (id.),
and we find that the former depicts another upper
floor. Russian drawing “7-0B-8” has an open area
in the middle, but no stairwells (id.); Russian
drawing “7-0B-4” has an open area in the middle
and a stairwell in the left-hand corridor
corresponding to the left-hand stairwell in the
first-floor drawing, “7-0B-5” (id.). We find that
Russian drawing “7-0B-4” depicts a basement and
Russian drawing “7-0B-8” depicts a roof. We
therefore find that Russian drawings ‘’7-0B-4,” “70B-5,” “7-0B-6,” “7-0B-7,” and “7-0B-8” depict
different floors of the same building and that a
potential offeror in possession of these drawings
could reasonably have known that the building
depicted therein had a basement and multiple
floors at or above grade enclosing an open area.
39. Comparing the building depictions in the
Russian drawings “7-0B-4,” “7-0B-5,” “7-0B-6,” “70B-7,” and “7-0B-8” (see finding 38) to the Baker
report floor plan sketches (see finding 7; Figs. 2-3,
above), clearly reveals that the building depicted
in Russian drawings “7-0B-4,” “7-0B-5,” “7-0B-6,”
“7-0B-7,” and “7-0B-8” is neither Building No. 1,
the Hospital Patient Care Building; Building No.
2, the Hospital Operations Building; Building No.
3, the Hospital Administration Building; nor
Buildings No. 5A (Kitchen), No. 5B (Main
Electrical Gear and Laundry), or No. 5C
(Maintenance Shops). None of those buildings
enclose an open area. Considering the Baker
sketches; the testimony of appellant’s witness, Mr.
Tumer, who described Building No. 10 as having a
basement, five above-grade floors, and “an empty
hole” in its “mid-section” (tr. 2/142, 245); and

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

46a
several photographs, identified by the government
as being of Building No. 10, which show multiple
above-grade floors surrounding an open area (R4,
tab 47), we find that Russian drawings “7-0B-4,”
“7-0B-5,” “7-0B-6,” “7-0B-7,” and “7-0B-8” depict
Building No. 10, the Polytechnic Clinic, which is
the only building on the ANA hospital campus
constructed around an open area.
40. The following Russian drawings, each of
which depicts another different building, also
clearly indicate the presence of sub-grade floors or
basements by their use of cutaway views and
stairwells: “4-AC-4,” “6-AC-3,” “5-0B-30,” and “19AC-4” (R4, tab 341-D). Comparing these Russian
drawings to the Baker report floor plan sketches
(see finding 7; Fig. 2, above), reveals that the
buildings depicted in these drawings are neither
Building No. 1, the Hospital Patient Care
Building, nor Building No. 3, the Hospital
Administration Building. Without certified
translations, we cannot specify which buildings
are depicted in Russian drawings “4-AC-4,” “6-AC3,” “5-0B-30,” and “19-AC-4” (see findings 34, 37).
However, a potential offeror in possession of the
Russian drawings would have had notice that
several of the ANA hospital campus buildings had
sub-grade floors or basements.
41. As noted in the Baker report and the
solicitation, and as Mr. Shipley testified, the
Russian drawings were available in the facility’s
engineering offices for inspection by prospective
offerors (findings 6, 26, 29). Appellant furnished
no evidence that it inspected, or even tried to
inspect, the Russian drawings at any time prior to

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

47a
submitting its proposal (see finding 35). We find
that appellant did not use the Russian drawings
to prepare its proposal. Indeed, taking into
account the testimony of Messrs. Tumer and Yagci
regarding the Russian drawings (findings 35-36),
we find that appellant did not obtain the Russian
drawings until after the contract was awarded.
F. Appellant’s Proposal Submission
42. The due date for proposals was originally 10
August 2004, which was later extended by a week
to 17 August 2004 at 4:30 p.m. (Kabul time) (R4,
tab 19 at 3, 4). Zafer submitted its proposal
shortly after the deadline for proposal
submissions (R4, tabs 18, 19). Although the
government did not expressly reject the proposal
submission, Zafer was advised that the
government would only consider the proposal if it
was determined to be in the best interests of the
government (R4, tabs 18, 20).
43. Throughout its proposal, Zafer stressed its
ability to design a cost-effective solution to meet
the government’s requirements (R4, tabs 11-13).
44. Zafer’s price proposal complied with the
requirements of section 00100 of the solicitation,
“Bidding Schedule/Instructions to Bidders.” It
consisted of a single-page listing, in three columns
(“Item No,” “Description,” and “Amount”), of prices
for each of the CLINs required by the solicitation.
(Compare R4, tab 19 at 2, with R4, tab 4 at 3)
Zafer’s proposal did not provide any proposal
takeoff sheets, work breakdown structure (WBS)
documentation showing parameters considered,
cost indices, historical pricing data, risk analysis,

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

48a
or other materials which might demonstrate how
it determined the unit rates and area estimations
that were used for its calculations concerning its
anticipated costs to perform the project (R4, tab
19). To explain its price proposal assumptions and
limitations to the government, Zafer’s proposal
provided only the following paragraph:
Price Evaluation Facton:
Since the project is to renovate existing
hospital and auxiliary buildings, it is
assumed [that] no additional measure has
been taken for the foundations of the
buildings and that the walls and
superstructure are in good condition. They
will only require minor removal of
covering down to the substrate works.
Existing utilities will be abandoned in
place or removed to allow for new works.
All renovation works, electrical,
mechanical[,] and site works should be
done according to specifications and
norms.
(Id. at 32)
45. Zafer alleges that the document located in
tab 339, subtab 19, of appellant’s Rule 4 file
supplement consists of the background
calculations that Zafer used to prepare its
proposal (app. br. at 28; tr. 1/168-83, 3/172-74).
These were not provided to the government as
part of Zafer’s proposal (tr. 1/164). Although it
appears that unit quantities in several of ‘the
tables in subtab 19 are measured in meters or
square meters (R4, tab 339, subtab 19 at 5, 18-20),
appellant cites nothing in these tables that either

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

49a
explains how Zafer arrived at its meter/square
meter measurements or indicates how many
above-grade floors and/or basements Zafer
assumed for each building. Nor has Zafer offered
the testimony of anyone contemporaneously
involved in the proposal preparation process to
explain the document. Mr. Yagci testified to
having seen the document before approving the
proposal as part of Zafer’s bid close-out session,
but he also testified that the proposal preparation
team did not discuss the document with him “in
this detail” (tr. 3/173). He offered no explanation
of the rationale and assumptions underlying the
calculations (tr. 3/172-74; see finding 48). We find
the document to lack probative value as to how
Zafer determined the unit rates and area
estimations that were used for its proposal price
calculations.
46. Zafer failed to provide the testimony of
anyone who either prepared Zafer’s proposal or
had contemporaneous knowledge of the proposal
preparation team’s underlying assumptions or the
information it used to calculate the square footage
of buildings on the ANA hospital campus.
Appellant’s witnesses testifying about its proposal
consisted of Zafer’s government-projects
coordinator, Mr. Tumer, and its CEO, Mr. Yagci.
Mr. Tumer testified that he had no role in
preparing the proposal (tr. 3/6-7). Rather, Mr.
Tumer’s testimony regarding the proposal was
retrospective, based upon his reading of the
proposal during the claim preparation process (tr.
3/78-79). Nor did Mr. Tumer review the proposal
prior to its filing (tr. 1/167, 3/6-7). Mr. Tumer
testified that he first reviewed the entire proposal

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

50a
only during the course of discovery for this
proceeding (tr. 1/167). Because Mr. Tumer
testified that he had no role in preparing Zafer’s
proposal and appellant did not establish that he
was knowledgeable of the calculations and
assumptions underlying the proposal, we find the
testimony of Mr. Tumer to lack credibility with
respect to the underlying bases for Zafer’s square
meters calculations or any other assumptions
relied upon by Zafer in formulating its price
proposal.
47. Nor did Mr. Yagci prepare the proposal (tr.
3/208-11). He testified instead that his role in the
proposal preparation process was to inquire of the
preparers the scope of work and pricing. He then
analyzed Zafer’s risks and gave final approval
before the proposal was submitted to the
government:
Q What is [your role in Zafer’s proposal
preparation] process? What do you do?
A What I do is, first they tell me what
the project is .... [T]hey brief me about
what the scope of work in general is, the
square meters, the new construction ...
they tell me the type of the structure and
the type of—they describe the scope of
work.
[S]econd, they tell me how did they make
their calculations, whether they have
made calculate—when they make the
quantity, how did they make the quantity
take-offs, because most of those projects,
they start to be designed to build.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

51a
….
[T]hen I ask how did you arrive [at] the
prices? You made them. Did you count
those prices are based on, did you talk
with the site if you have—if there are
available inter-prices, did you talk to
them? Did you get them from [a]
subcontractor? Did you estimate them
based on previous experience? Did you
base—did you get the prices from the
database, because it is a combination of
all these unit prices.
So, they explain to me, what is the
rationale, how did they arrive.
What I am doing in general is a sort of a
risk analysis. Actually, my main mission
when we bid for the work, because every
bidding in the solicitation it involves
certain risks ....
So, there are many issues that you need
to consider. What are the—the risk
analysis is very important. What I am
doing is a risk analysis. I ask them
questions about the bank letter of
guarantees, insurance, all these
questions.
(Tr. 3/166-68)
48. Although Mr. Yagci testified about his
typical routine for reviewing Zafer proposals, his
testimony offered little in the way of specific
details about his review of this particular proposal
(tr. 3/160-76, 208-10). Mr. Yagci testified that he
saw the proposal preparation team’s background

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

52a
calculations (finding 45) before approving the
proposal and stated that he was aware of the
“rationale behind” the calculations (tr. 3/173), but
he never explained what that rationale was (tr.
3/172-74). Mr. Yagci’s testimony included nothing
to indicate that he independently verified the
square meter calculations or assumptions made by
those who prepared Zafer’s price proposal (tr.
3/166-68, 173). While Mr. Yagci testified that
Zafer did not conduct a site inspection prior to
submitting its proposal (tr. 3/199, 211), his
testimony gave no indication that he was aware of
the Russian drawings before the contract was
awarded (tr. 3/176-77; see also finding 35). Mr.
Yagci testified that Zafer’s proposal preparation
team used the Baker sketches provided by the
government to prepare its proposal (tr. 3/176;
finding 35); however there is no contemporaneous
evidence tying appellant’s price proposal to the
Baker sketches. Nor is there contemporaneous
evidence from Mr. Yagci or another witness for
Zafer indicating how appellant’s price proposal
preparation team made the area calculations it
used to price the proposal (see findings 8, 44-46).
As with Mr. Tumer (finding 46), we do not find the
testimony of Mr. Yagci to be credible with respect
to the underlying bases for Zafer’s square meter
calculations or any other assumptions relied upon
by Zafer in formulating its price proposal.
49. The record does not support any findings
respecting the underlying assumptions of Zafer’s
proposal preparation team or the information it
used to calculate square meters. The record does
not reflect that Zafer asked the government any

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

53a
questions about the solicitation, the Baker
sketches, or the ANA hospital campus at any point
in its proposal preparation. We find that appellant
failed to show that it raised any inquiry to the
government regarding the project site or the scope
of work prior to submitting its proposal.
G. The Government’s Proposal Evaluations
and Contract Award
50. The government received a total of nine
proposals, including Zafer’s late submittal (R4, tab
60). The government spent several weeks
evaluating the proposals and deciding upon its
negotiating position in the event it elected to
engage in discussions (R4, tabs 59-60, 333).
51. The government’s price evaluation team
performed a price evaluation comparing its
own independent government estimate (IGE) with
all nine price proposals submitted for
the competition, including the technically
unacceptable ones and Zafer’s late-submitted
proposal. The IGE consisted of a Base Bid amount
of $16,977,904 and an Options amount of
$12,971,516, totaling $29,949,420. Zafer’s
proposed price consisted of a Base Bid amount of
$10,940,557 and an Options amount of $6,009,645,
resulting in a total proposed price of $16,950,202.
Zafer’s chief competitor for the project, Kolin
Construction Company (KCC), proposed a Base
Bid amount of $14,134,000 and an Options
amount of $9,566,000 for a total price of
$23,700,000. (R4, tab 333 at 26) Zafer’s total
proposed price for these was roughly 28% less
than that of KCC and about 43% less than the

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

54a
total IGE. The total price proposed by KCC was
approximately 21% less than the total IGE. The
SSET, after considering the prices proposed,
determined that Zafer’s proposal was complete
and reasonable and represented a low risk (R4,
tab 332 at 2-3).
52. On 26 August 2004, CO Gaylor signed a
memorandum to advance the source selection
process. The memorandum, entitled “Non-pricing
(Technical) Evaluation,” reviewed the strengths
and weaknesses of each proposal in relation to the
technical evaluation criteria, as reported to the
CO by the technical evaluation team. Despite its
title, however, the memorandum also includes a
summary of the price evaluation conducted by Mr.
Mullery’s price evaluation team and concludes
with a best value determination. (R4, tab 60)
According to this memorandum, appellant’s
principal competitor, KCC, was rated “excellent”
and “low risk” in every technical evaluation
category (id. at 2-4 of 19). KCC proposed to
subcontract with an American company, Centrax
of Louisville, Kentucky, for the design portion of
the contract (id. at 3 of 19). Zafer’s technical
proposal was not rated as highly as KCC, with
Zafer being rated “good” or “very good” in several
categories (id. at 7-9 of 19). The memorandum
included the following findings:
a. [KCC’s] proposal is 21 percent below
the IGE including all options. The offeror
is low risk in pricing evaluations. The
offeror’s subcontractor for the design is
base[d] in the USA, this means the
overhead is higher compare[d] to [a] local
designer.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

55a
….
c. ZAFER cost proposal is 43.4 percent
below the IOE including all option items.
The offeror is low risk of the price
evaluations. The cost of the firm is lower
compare[d] to [KCC] because the firm has
an in-house designer. This will cut
overhead cost.
(Id. at 18 of 19) (Emphasis added)
53. On Sunday 29 August 2004, the CO sent
Zafer an email with the following:
We are in the process of reviewing your
bid proposal .....
We would ask at this time you review
what you submitted as your proposal and
verify your proposal prices as the total
price of $16,950,202.00. This price
included the base bid and the Options.
Please respond to this email no later than
4:00PM on 30 August 2004.
(R4, tab 21) Monday, 30 August 2004 was a
national holiday in Turkey (tr. 3/183).
54. By email on 31 August 2004, Zafer
responded as follows:
This email is to confirm that as Zafer
Construction Co. our offer for ANA
Military Hospital [RFP] is $16,950,202—
including base bid and optional bid items.
(R4, tab 21) Zafer did not furnish the testimony of
any employee who was actually involved in
verifying the proposal.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

56a
55. Despite its greater technical ratings, KCC
was not awarded the contract because CO Gaylor
determined that the difference in its technical
rating did not warrant paying the price premium
for the greater overhead of a design subcontractor
based in the United States (R4, tab 333 at 11, 2627; see also finding 52).
56. There is no evidence that CO Gaylor had
knowledge of the mistake appellant alleges
occurred in its proposal preparation that resulted
in Zafer’s underestimation of the work required.
She testified that she intended only to award the
contract to a “good contractor, that could complete
[the] project in a timely manner, had good
performance records, and provided the best
value,’’ and not to “set up” a contractor for failure
by awarding to a contractor with an unreasonable,
low offer (tr. 3/290). We find that CO Gaylor
believed the difference in price between the KCC
proposal and Zafer’s proposal was the result of the
difference in overhead (finding 55), which in turn
resulted from KCC’s choice to subcontract the
design work to a firm based in the United States.
57. On 8 October 2004, the government awarded
the contract to Zafer in the amount of $16,508,725
(R4, tab 5 at 1). The contract included firm-fixed
price CLINs for the following buildings on the
ANA hospital campus:
CLIN 0001 - Building No. 1, Hospital
Patient Care Building
CLIN 0002 - Building No. 5A, Kitchen

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

57a
CLIN 0003 - Building No. 5B, Main
Electrical Gear and
Laundry
CLIN 0004 - Building No. 7, Heating
Fuel Pump Station
CLIN 0005 - Building No. 9,
Wastewater Treatment
Plant
CLIN 0006 - Building No. 13, Sewage
Lift Station Building
CLIN 0007 - Building No. 2, Hospital
Operations Building
CLIN 0008 - Building No. 3, Hospital
Administration Building
CLIN 0009 - Building No. 4, Isolation
Ward
CLIN 0010 - Building No. 8,
Rehabilitation Building
CLIN 0011 - Building No. 10,
Polytechnic Institute
CLIN 0012 - Building No. 6, Morgue
CLIN 0013 - Bui1ding No. 11,
Engineering Offices
CLIN 0014 - Building No. 5C,
Maintenance Shops
CLIN 0015 - Building No. 12, Surgeon
General Quarters
CLIN 0016 - Building No. 14, Command
Center
(R4, tab 5 at 3-8)

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

58a
58. The contract SOW and Technical
Requirements are identical to those in the
solicitation (compare R4, tab 4 at 154-76 (Scope of
Work), at 181-230 (Technical Requirements), with
R4, tab 5 at 133-55 (Scope of Work), at 160-209
(Technical Requirements); see also findings 17-26).
H. Post-Award Discussions
59. The government gave Zafer the notice to
proceed on 12 October 2004 (R4, tab 22).
60. Following receipt of the notice to proceed,
appellant conducted a post-award, preconstruction site assessment visit (tr. 2/184). This
pre-construction site visit included a tour of the
basement levels of the project buildings,11 during
which appellant’s employees measured the
building area in order to prepare their own
drawings (tr. 2/198-201). During its site visit,
Zafer also obtained the Russian drawings (see
finding 36) and used these to develop its own
drawings (tr. 2/186-89, 193-97).
61. Appellant’s witness, Mr. Turner, testified
that many of the basements in the ANA hospital
campus buildings came as a surprise to
appellant’s site assessment team, including the
basement in the eight-story Hospital Patient Care
Building, Building No. 1 (tr. 2/139-42).
Additionally, appellant’s site assessment team
discovered that the Polytechnic Clinic, Building
No. 10, not only had a basement, it had multiple
11

Prospective contractors that participated in the site tour
prior to submission of their proposals were afforded the
opportunity to visit the ANA hospital campus and see the
buildings (see finding 29).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

59a
above-grade floors (tr. 2/142), and an enclosed,
open area (tr. 2/245; see also findings 30, 39,
which indicate relevant information the contractor
would have learned from a pre-award site visit).
62. Appellant contends that, upon realizing that
it had significantly miscalculated its estimated
work area, and in particular had not accounted for
certain basements and above-grade areas in the
project buildings on the ANA hospital campus, it
promptly brought the matter to the attention of
the contracting officer’s representative (COR),
Elizabeth Carver. Appellant explained to the COR
that it had calculated its estimated work area
using only the Baker sketches provided by the
government on 14 July 2004. In its 21 October
2004 letter, appellant stated: “Since we are in the
very early stages of the contract we need to bring
this issue to your attention, with the hope to
eliminate future conflicts and discussions
regarding this situation.” Although appellant’s
letter indicates that CO Gaylor was to be copied
on the email transmittal of the letter, her name
was misspelled as “Gaylord” in the letter,
suggesting that it was also misspelled on the
email. (R4, tab 23; tr. 3/274) The email
transmitting Zafer’s 21 October 2004
correspondence is not in the record. CO Gaylor
testified that she did not recall seeing Zafer’s 21
October 2004 correspondence (tr. 3/275, 283).
63. By response letter dated 27 October 2004,
COR Carver informed appellant that site
inspections were held on 2 and 9 July 2004, and
Zafer employees were in attendance. Moreover,
the COR explained that no drawings had been
provided to offerors, only site plans, and that the

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

60a
“dimensions and number of stories” of buildings
were visible from a site inspection. Finally, COR
Carver pointed out to appellant that paragraph
1.7 of section 01020 of the SOW required
appellant to “survey the lowest level .... for areas
of standing water,” which the COR noted
“emphasized [the need] to survey the basement or
the lower part of the building.” (R4, tab 24) We
find that COR Carver’s use of “CF:” at the end of
her response letter indicates that she intended it
to be seen also by “CEAED (Kuligowski, Swartz,
Gaylor, Ali, Eldr[e]d)” (id.) (emphasis added).
Although the email transmitting COR Carver’s 27
October 2004 response is not in the record, we find
that a copy of COR Carver’s response was
provided to CO Gaylor. We find that regardless of
whether CO Gaylor received the email
transmitting Zafer’s 21 October 2004
correspondence (finding 62), CO Gaylor was aware
of its substance.
64. Appellant responded by letter dated 4
November 2004, reminding COR Carver that the
solicitation had not even been issued until 10 July
2004 and reiterating its understanding that it had
received drawings as part of the solicitation
package. Again, the letter indicates that CO
Gaylor was to be copied on the email transmission
but, again, her name was misspelled. (R4, tab 25;
tr. 3/284) CO Gaylor testified that she did not
recall having seen Zafer’s 4 November 2004
correspondence (tr. 3/285-86). There is no evidence
in the record that CO Gaylor actually received it.
65. By letter dated 21 December 2004, COR
Carver responded to Zafer’s 4 November 2004
letter. She acknowledged her error with respect to

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

61a
the dates of the site visit: “The actual site
inspections were scheduled on July 12, 2004 and
July 19. 2004.” The COR also acknowledged the
existence of the Baker sketches in the solicitation,
but stated that “these drawings were insufficient
to use for quantity take off.” COR Carver’s “CF:”
at the end of the correspondence again indicates
circulation of the letter, but this time only to
“CEAED (Swartz, Sheridan, Eldred).” (R4, tab 27)
CO Gaylor was no longer in-country by 21
December 2004 (tr. 3/286).
I. R e q u e s t / o r E q u i t a b l e A d j u s t m e n t a n d
Modification of the Contract 12
66. By letter dated 11 April 2006, appellant
submitted a request for equitable adjustment
(REA) to account for schedule impacts allegedly
resulting from various events beginning as early
as the date of issuance of the notice to proceed, 12
October 2004 (see finding 59). The specific
circumstances of those various events, set forth in
paragraphs 1 and 3-7 of the REA, are not relevant
to the instant dispute. The topical headings for
those paragraphs are: “1. Delayed Site Access”;
“3. Untimely changed decisions and late
delivery of some information during the
design phases”; “4. Change Orders”; “5.
Differing/Unforeseen Site conditions”
involving elevators, ductwork, and risers; “6.
Stoppage of the work due to potential
12

The facts in this section (findings 66-68) regarding Zafer’s
11 April 2006 request for equitable adjustment and the
subsequent bilateral contract Modification No. P00010,
relate to the government’s affirmative defense of accord and
satisfaction.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

62a
terrorist actions, hindered site accesses and
similar incidents”; and “7. Changes to the
Phasing Plan & Delays due to late delivery of
the buildings.” (R4, tab 323) Appellant
requested a time extension of 172 calendar days
and an equitable adjustment of $1,542,002.48 (id.
at 6). Appellant’s REA did not include the
certification required by 10 U.S.C. § 2410(a).
67. Paragraph 2 of the 11 April 2006 REA,
which is relevant to the parties’ dispute before us,
stated the following:
2. Differing site conditions
Immediately after the first inspection of
the compound, ZAFER determined that
some of the buildings were significantly
different than defined in the bid
documents.
There was a difference between the area
calculated according to the bid drawings
and the actual area. There is
approximately 13,000 sqm more area,
which corresponds to a 41% increase
above the calculated area. This issue was
brought to COE’s attention via ZAFER
serial letter No: 1 dated 21.Oct.2004.
ZAFER is in the process of preparing a
REA for the additional work performed
due to area increase and will be submitted
to COE as soon as possible. This increase
in renovation area has had an impact on
the overall project resource planning and
the related performance period.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

63a
(R4, tab 323 at 2) (Italics added) Zafer thus
removed from the scope of its 11 April 2006 REA a
request for compensation for “work performed due
to area increase,” amounting to “a 41% increase
above the calculated area” in its proposal (id.).
Zafer identified this issue as having been the
subject of its 21 October 2004 correspondence (id.;
see also finding 62). Zafer’s assertions regarding
“additional work performed” were later made part
of its claim of 13 June 2008 (R4, tab 3 at 51 of 51).
68. In response to appellant’s 11 April 2006 REA
the parties executed contract Modification No.
P00010 with an effective date of 25 July 2006 (R4,
tab 15 at 1). The bilateral modification is
described as being “necessary to provide for an
Equitable Adjustment to the contract[] for Time
Delays during the period of October 12, 2004 to
July 22, 2006, inclusive” (id. at 1-2). By this
modification, the parties agreed to increase the
contract value by $1,023,000 and extend the
period of performance by 160 calendar days (id. at
3). Modification No. P00010 included waiver
language which stated in pertinent part:
In consideration of the modification
agreed to herein as complete equitable
adjustment for the Contractor’s “Proposal
for Adjustment”, submitted by letter dated
April 11, 2006 for all changes as described
in this modification, the Contractor
hereby releases the Government from any
and all liability under this contract for
further
equitable
adjustments
attributable
to
such
facts
or
circumstances giving rise to the “proposals
for adjustment”.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

64a
(Id. at 3) (Emphasis added)
J. Claim, Final Decision, and Appeal
69. By letter dated 13 June 2008, appellant
submitted a certified claim for $4,104,891 for
renovation work done in basements and rooftop
mechanical rooms, alleging that “the extent of the
works carried out on site was far in excess of
[that] described in the Solicitation documentation”
(R4, tab 3 at 1 of 2, 3 of 51).
70. For example, claiming that there were floors
“additional” to the eight stories specified in the
solicitation, Zafer sought $269,795 for renovations
to the basement and $155,652 for the rooftop
“Winter Garden” of the Hospital Patient Care
Building (Building No. 1) (R4, tab 3 at 16-18, 20,
34 of 51). In calculating the increased cost of
renovation work to these “additional” floors,
appellant “recogni[z]ed that all of [the] floors are
not necessarily the same” and grouped them into
the following categories: “i. Work in the standard
‘typical’ floors; ii. Work in the basements; [and] iii.
Work in the technical floors at the attic; (the scope
of work carried out was different in each
category)” (id. at 32 of 51). “Typical” floors were
defined as being “more or less identical to the ones
allowed for in the original contract. As a
consequence[,] the value per m [2] is the same as
that included in the original tender[,] thus
removing any possibility of ambiguity.” Regarding
the second category of floors, “basements,” Zafer
alleged that the “intensity of the civil, mechanical,
and electrical works performed was less than that

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

65a
carried out in the [typical] floor of the same
building.” Thus, the additional scope of work for
basements was determined to be 35% of that of a
typical floor for “civil”; the “electrical” was
determined to be 30%; and “mechanical” was 20%.
The rooftop mechanical rooms, or “attics,” were
also of lesser “intensity” than typical floors. For
these, the additional scope of work was given as
follows: civil was 40% of the value for a typical
floor; electrical was 30%; and mechanical was
25%. (Id. at 32-33 of 51) Although the contractor
characterized the “Winter Garden” on the top floor
of Building No. 1 as being a “special area for the
ANA Generals,’’ for “reasons of simplicity, the
scope of work [for the Winter Garden was]
assumed to be equal to that of a typical floor” (id.
at 33 of 51).
71. Zafer’s claim breakdown for Building No. 1,
below, is illustrative of the manner in which Zafer
proposed its claim for each building in which it
allegedly performed additional work:

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

66a

13

We note that the “Total area included in Bid Proposal” of
18,560 square meters, as cited in the claim, corresponds to
certain Building No. 1 unit quantities in the undated
document Zafer alleges to be its proposal background
calculations (R4, tab 302 at 5, 18). However, the latter
document is silent as to the underlying assumptions and
rationale of the proposal preparers, upon which the area
estimations are based (see finding 45).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

67a

(R4. tab 3 at 34 of 51); see also id. at 35-48 of 51
for similar calculations for other buildings)
14

The adjusted rate for basements was calculated as follows:
Civils: ($3,940,078 / 2,320 m 2 = $212.29 / m 2) * 0.35 = $74.3
/ m 2; Electrical: ($2,384,245 / 2,320 m 2 = $128.46 / m 2) * 0.3
= $38.5 / m2; and Mechanical: ($1,770,905 / 2,320 m2 = $95.42
/ m 2) * 0.2 = $19 / m 2. Total adjusted rate: $74.3 / m 2 + $38.5
/ m 2 + $19 / m 2 = $131.80 / m 2 (see finding 70).
15
The rate for the “Winter Garden” was not actually
adjusted (finding 70).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

79569 • CLIENT: Gdanski • APPENDIX

[No. 1]

[No. 5A]

[No. 5B]
[No. 7]
[No. 9]

[No. 13]
[No. 2]

1

2

3

4

5

6

7

Building
Ref Number

$109,075

$ 22,651

$ 16,899

$ 50,917

$269,795

Basement

$ 0.00

$ 0.00

Second
Floor

Third
Floor

$167,001

Fourth
Floor
$155,652

Ninth
Floor

$276,076

n/a

n/a

$ 22,651

$ 16,889

$ 50,917

$425,447

Total

68a

72. Zafer summarized its entire claim in the
following “EVALUATION SUMMARY”:

lkp 00:00 07/23/19

79569 • CLIENT: Gdanski • APPENDIX

0.00

16 EC Harris Claim preparation costs

15 [No. 14]

$

$ 68,661

TOTAL CLAIM [illegible]

n/a

[illegible]

$ 42,700

$

$ 129,507

$2,247,785

79,433

$ 79,433

$ 60,846

12 [No. 6]

$836,290 $839,020 $309,624

$ 176,151

14 [No. 5C]

$262,851

11 [No. 10]

$100,270 $ 14,019

$ 494,110

$ 143,225

n/a

$ 61,862

10 [No. 8]

$376,068

$ 77,007

13 [No. 11]

$118,042

[No. 4]

9

$ 66,218

[No. 3]

8

69a

(R4, tab 3 at 50 of 51)

lkp 00:00 07/23/19

70a
73. In particular, Zafer claimed $109,075 for
renovation work in the basement of the Hospital
Operations Building (Building No. 2) (R4, tab 3 at
40 of 51), which it alleged was an “additional”
story beyond the three specified in the solicitation
(id. at 21 of 51). Of the total amount claimed for
alleged additional work on the ANA hospital
campus buildings, over half—$2,247,785—related
specifically to the multi-floor Polytechnic Clinic
(Building No. 10), which Zafer allegedly assumed
was a single-story building (id. at 19, 21, 50 of 51;
tr. 2/232). Additionally, Zafer claimed $42,700 for
claim preparation costs (R4, tab 3 at 49-50 of 51).
74. Zafer’s claim alleged several bases of
entitlement: first, that while “there are no
ambiguities” in the solicitation, there was an
“inconsistency between the RFP documents and
[the] intended scope of work which was reali[z]ed
after the site handover” (R4, tab 3 at 23 of 51).
Zafer alleged that in preparing its proposal it had
relied upon the Baker sketches that the
government provided as part of the solicitation
(id. at 22, 23 of 51). According to appellant, “[t]he
additional work carried out by Zafer was “a direct
result of the Contract documentation not being
representative of the actual extent of the works
that the CoE required to be carried out” (id. at 28
of 51). Zafer further asserted that “the Solicitation
information was prepared by the [government]
and accordingly any ambiguities contained therein
will be governed by the legal doctrine of contra
proferentum” (sic) (id. at 23 of 51). Finally,
appellant alleged that its miscalculation of the
area of work to be performed on the buildings on

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

71a
the ANA hospital campus constituted a “mistake
in bid” which the government had a duty to
meaningfully verify prior to awarding the
contract. Citing the “significant disparity”
between Zafer’s proposed price and the
government’s independent estimate, appellant
argued that this should have raised a presumption
of error in the mind of the CO. (Id. at 23-27 of 51)
Included in Zafer’s claim were documents
intended to support its reading of the solicitation
and its pricing methodology. However, Zafer failed
to include any supporting testimony or
documentation to explain its original price
proposal (e.g., proposal takeoff sheets, WBS
documentation of parameters considered, cost
indices, historical pricing data, risk analysis, etc.)
(see findings 44-46). (R4, tab 345)
75. On 14 March 2009, the government denied
the 13 June 2008 claim. The 14 March 2009 CO’s
final decision made no mention of either Zafer’s 11
April 2006 REA (see findings 65, 67) or Modification
No. P00010 (see finding 68). (R4, tab 2)
76. Appellant timely appealed on 17 March 2009.
DECISION
Appellant has presented the Board with
allegations of a CO overreaching by accepting a
proposal that the government knew or should have
known was erroneous. The solicitation and contract
imposed an affirmative duty upon the contractor to
inspect the site before submitting its proposal, and
employees of the contractor were already positioned
relatively near to the site and could have performed
such an inspection, yet the contractor made no

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

72a
effort to inspect the site until after contract award.
The solicitation, which was accompanied by
sketches but not technical drawings, informed
potential offerors that original, as-built technical
drawings were available, but the contractor did not
seek to obtain them until after contract award. The
contractor asked no questions until after contract
award. Without having inspected the site, reviewed
the technical drawings, or asked anything during
the proposal stages, the contractor submitted a
multimillion dollar proposal for a complex project
to rebuild and renovate a 30-year-old hospital
campus consisting of 16 separate buildings,
including a 400-bed patient-care facility. When the
government asked the contractor to verify its
proposal price prior to award, the contractor
promptly confirmed it. Only after the contract was
awarded and the contractor finally inspected the
site and reviewed the technical drawings did Zafer
realize that its proposal was in error.
Now, the contractor seeks to shift onto the
government the responsibility for its failures to
inspect and inquire prior to making its proposal.
Zafer contends that: it is entitled to contract
reformation because it made a mistake in
preparing its proposal based on a misreading of the
specifications; the government should have known
about the mistake based on a comparison of Zafer’s
proposal price to the IGE, and therefore the
government should have asked Zafer to verify its
proposal price; the government’s request for
verification was insufficiently definite; and Zafer
can show what its proposal would have been but for
the error (app. br. at 77-103). Zafer also contends,
in various places throughout its mistake argument,

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

73a
that the government’s acceptance of the allegedlymistaken proposal price was unconscionable (app.
br. at 3, 80, 90, 103). Finally, Zafer asserts that “[i]f
the Board determines in this case that this a
differing site condition,” then Zafer is entitled to
r e l i e f d u e t o t h e e x i s t e n c e o f d i f f e r i n g s i t e 16
conditions, as well (app. br. at 103-07).
We will consider appellant’s arguments in turn.
We have jurisdiction to adjudicate this dispute
pursuant to the Contract Disputes Act, 41 U.S.C.
§§ 7101-7109.
A. Unilateral Mistake 17
The parties have devoted considerable attention
to whether the unilateral mistake doctrine applies
equally to negotiated procurements such as the
one here, which was procured under the
procedures in FAR part 15, as it does to sealed-bid
procurements (app. br. at 93; gov’t br. at 29, 3334; app. reply br. at 7-9; gov’t reply br. at 1-2).
Even assuming, arguendo, that the unilateral
16

Zafer uses the terms “differing site condition” and “change
condition” interchangeably, although it seems to prefer the
latter (app. br. at 103-07). In our discussion, we will use the
term “differing site condition.”

17

Throughout its briefs, Zafer refers to its mistake argument
as “mistake in bid” (app. br. at 3, 77-103), but also ‘’mistaken
bid” (id. at 2, 3, 6, 19) and “unilateral mistake” (id. at 90, 91,
93), and once even mentions in passing “mutual mistake” (id.
at 90). Because the contours of appellant’s mistake argument
(id. at 77-91), and the underlying claim (see finding 74),
conform to the elements of unilateral mistake, specifically,
we consider them according to that doctrine. Cf. River Ridge
Dev. Auth., ASBCA No. 58981, 16-1 BCA ¶ 36,314 at 177,057
(discussing the doctrine of mutual mistake).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

74a
mistake doctrine applies with equal vigor to FAR
Part 15 procurements, appellant has failed to
show by clear and convincing evidence that it met
the requirements of the doctrine.
As we understand appellant’s briefs, Zafer
attempts to support its claim with the legal
argument that it is entitled to recover because it
made a unilateral mistake in its proposal (app. br.
at 77-91). However, Zafer does not articulate facts
to support such a holding.
In order to recover under the doctrine of
unilateral mistake, Zafer bears the burden of
proving, by clear and convincing evidence, the
following elements:
(1) [A] mistake in fact occurred prior to
contract award; (2) the mistake was a
clear-cut, clerical or mathematical error
or a misreading of the specifications and
not a judgmental error; (3) prior to award,
the Government knew, or should have
known, that a mistake had been made
and, therefore, should have requested bid
verification; (4) the Government did not
request bid verification or its request for
bid verification was inadequate; and (5)
proof of the intended bid is established.
McClure Elec. Constructors, Inc. v. Dalton, 132
F.3d 709, 711 (Fed. Cir. 1997). “Clear and
convincing evidence” is “evidence which produces
in the mind of the trier of fact an abiding
conviction that the truth of a factual contention is
‘highly probable.’” Am-Pro Protective Agency, Inc.
v. United States, 281 F.3d 1234, 1239-40 (Fed. Cir.
2002). Rather than meet this high burden, Zafer

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

75a
seeks to shift the burden of responsibility for
having underpriced its proposal by asserting that
the government acted unconscionably by accepting
its late-submitted proposal without a meaningful
request for verification (app. br. at 80-103).
We note that elements 3 and 4 of the criteria set
forth in McClure pertain to government knowledge
or action; they do not focus on what Zafer must
prove about its own actions as a contractor.
Assuming solely for the purposes of argument
(and we do not so find) that the government knew
or should have known that a mistake had been
made and that its request for proposal verification
was inadequate (see elements 3 and 4), Zafer has
not demonstrated entitlement to contract
reformation using the appropriate yardstick and,
accordingly, its arguments come up short. The five
elements of unilateral mistake which the
contractor must show by “clear and convincing
evidence” are normally conjunctive, not
d i s j u n c t i v e 18: t o p r e v a i l , a p p e l l a n t m u s t
demonstrate that each and every element is
18

In extreme cases that may be factually distinguished from
the instant appeal, the government’s pre-award inquiry has
been found so deficient that it failed in its duty to inform the
prospective bidder of an error. See, e.g., United States v.
Hamilton Enters., Inc., 711 F.2d 1038, 1046 (Fed. Cir. 2000).
However, for a contractor to recover under even those
circumstances, it must also prove the proper elements for
reformation. These are “that the error resulted from a ‘clear
cut clerical or arithmetical effort, or a misreading of the
specifications.’” Id., (citations omitted). Where the contractor
fails to meet this burden, “it is well established that an
erroneous bid based upon a mistake in judgment does not
entitle the contractor to reformation of its contract.” Id. at
1048 (citations omitted).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

76a
satisfied. E.g., McClure, 132 F.3d at 711-12
(contractor’s unilateral mistake claim failed where
contractor was unable to show by clear and
convincing one of the five enumerated elements).19
In particular, Zafer has not proven elements 1, 2,
or 5 as a threshold matter, which require
production of evidence within appellant’s purview.
1. T h e f i r s t e l e m e n t : A m i s t a k e i n f a c t
occurred prior to contract award
Appellant has not shown by clear and
convincing evidence that its proposal was based on
or embodies a mistake. We have found a lack of
credibility in the testimony of Messrs. Turner and
Yagci, which said that appellant’s proposal was
based on the Baker sketches and the SOW and did
not account for multiple above-grade areas in
some ANA hospital campus buildings or
basements in most of the buildings (see findings
46, 48). Their testimony does not substantiate how
appellant priced its bids. Zafer has failed to show
us any credible evidence of the constitution of its
price proposal other than a listing of the lumpsum prices proposed for each building (findings
44-45). In particular, Zafer has pointed us to
nothing that would demonstrate that the
assumptions and calculations underlying its
19

A contractor must prove all of the elements articulated in
McClure. Where a contractor fails to establish any of these,
our decisions typically treat an examination of remaining
elements as unnecessary. See, e.g., PGDC/TENG Joint
Venture, ASBCA No. 56573, 10-1 BCA ¶ 34,423 at 169,926;
Altos Federal Group, ASBCA No. 53523, 07-2 BCA ¶ 33,657
at 166,676; and Ellis Environmental Group, LC, ASBCA No.
54066, 07-1 BCA ¶ 33,551 at 166,163.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

77a
proposal were, in fact, mistaken. See Hamilton,
711 F.2d at 1047 (appellant provided no evidence
or testimony that a mistake was made in the
preparation of the proposal). Counsel’s
unsupported argument is not proof. Highland Al
Hujaz Co., ASBCA No. 58243, 16-1 BCA ¶ 36,336
at 177,169. We therefore cannot say that
appellant’s proposal was based on or embodied a
mistake rather than appellant’s business decision
to assume the risks of a lower-priced proposal. See
Atlantic Dry Dock Corp., ASBCA No. 54936, 13
BCA ¶ 35,344 at 173,472 (citing Macro-Z
Technology, ASBCA No. 56711, 12-1 BCA ¶ 35,000
at 172,005-06) (“It is the nature of a fixed-price
contract to place the risk on a bidder that
exercises its business judgment to establish its
price and during performance finds its price to be
low.”) By failing to provide either documentary
evidence or credible testimony by someone
knowledgeable of the assumptions made in
preparing the proposal, appellant has failed to
meet its burden of proving by clear and convincing
evidence that its proposal was based on or
embodies a mistake.
2. The second element: The mistake was a
clear-cut, clerical or mathematical error
or a misreading of the specifications and
not a judgmental error
Even if we had found that appellant’s proposal
was based on or embodied a mistake, appellant
has not shown by clear and convincing evidence
that such a mistake was not a mistake in business
judgment. A contract will not be reformed because
of a unilateral mistake unless the contractor

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

78a
establishes that the error resulted from a “clear
cut clerical or arithmetical error, or a misreading
of the specifications.” Hamilton, 711 F.2d at
1046)(quoting Ruggiero v. United States, 420 F.2d
709, 713 (Ct. Cl. 1970)). A “contractor need not be
free from blame” to recover. However, a contractor
is not entitled to reformation of its contract for a
mistake in business judgment. Ruggiero, 420 F.2d
at 713-14; Liebherr Crane Corp. v. United States,
810 F.2d 1153, 1158 (Fed. Cir. 1987) (mistake of
business judgment where errant proposal resulted
from “gross neglect and choice in failing properly
to examine and follow the specification”); see also
Hamilton, 711 F.2d at 1048.
Here, appellant does not allege that it
committed a mathematical or clerical mistake, but
rather that there was a “misreading of the
specifications, whether by the government or
Zafer, differently from each other” (app. br. at 83).
A misreading of the specifications occurs when a
contractor fails to correctly interpret various
elements of the specifications. Liebherr Crane, 810
F.2d at 1157. However, Zafer fails to specify which
(if any) of the specifications it allegedly misread.
Zafer contends that “[s]omewhere there was a
misreading of the specifications, or a mutual
mistake on the specification, or a unilateral
mistake or noncompatible [sic] interpretation
between the parties” (app. br. at 90) (emphasis
added). To the extent that it can be discerned from
its unilateral mistake argument (id. at 77-103),
appellant apparently contends that its misreading
of the specifications resulted from: the
government’s failure to include photographs of the
ANA hospital campus and to specify in the

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

79a
solicitation SOW which buildings had basements;
appellant’s assumptions based on another contract
it was performing at the time 20 (id. at 78); and
appellant’s use of the site and floor plan sketches
for its takeoffs (id. at 82). Mistakes stemming
from such bases do not find a remedy in the law.
Where there are gaps, inconsistencies, or
insufficient information in the solicitation
documents, and the contractor’s failure to inquire
with the government results in an erroneous
proposal, the contractor assumes the risk of its
failure to inquire. See, e.g., Giesler v. United
States, 232 F.3d 864, 870-71 (Fed. Cir. 2000)
(appellant’s bid without having verified the
specifications cannot be construed as a
“misreading”); DynCorp, 17-1 BCA ¶ 36,653
(appellant’s decision to submit a proposal without
having first inquired into “gaps” in the solicitation
data was a business judgment). The Baker
sketches and the solicitation SOW raise several
questions that should have spurred appellant’s
duty to inquire (see, e.g., findings 8, 21-26). For
example, the Baker sketch of Building Nos. 5A
and 5B depicts stairwells for each of these
buildings that indicate additional floors (finding
8). Each of these buildings is included in Zafer’s
claim (finding 72).
However, appellant did not ask the government
any questions prior to submitting its proposal
(finding 49). Nor does the record reflect that Zafer
made any effort to obtain the Russian drawings or
20

The other contract dealt with the ANA military academy,
which was not shown to be relevant to the work in this
contract.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

80a
inspect the site until after contract award
(findings 41, 32). Where, as here, the contractor’s
mistake resulted from “gross negligence in failing
to read and consider the specifications
thoroughly,” and the contractor made assumptions
without any attempt of verification with the
government, such a mistake has been held to have
been one of business judgment, not a misreading
of the specifications. See, e.g., Giesler, 232 F.3d at
870-71; Liebherr Crane, 810 F.2d at 1157.
Furthermore, “[w]here a contractor’s failure to
inspect the site gives rise to later fallacious
estimate of the scope of work, it assumes the risk
of its own omission.” Sealtite Corp., ASBCA No.
26209, 83-2 BCA ¶ 16,792 at 83,479. The
government conducted at least one site visit
(findings 28-30), which Zafer did not attend
(finding 31) and expressed no interest in
attending (finding 32). Even if the government
failed to provide Zafer with notice of the site visit,
the Site Investigations clause placed on Zafer an
affirmative obligation to inspect the site (finding
20). See, e.g., Oman-Fischbach Int’l (JV) v. Pirie,
276 F.3d 1380, 1384-85 (Fed. Cir. 2002)
(“Paragraph (a) [of FAR 52.236-3, SITE
INVESTIGATION AND CONDITIONS AFFECTING THE
WORK (APR 1984)] makes clear that the burden of
[inspecting the site] is the responsibility of the
contractor”); Randa/Madison Joint Venture III v.
Dahlberg, 239 F.3d 1264, 1267-68 (Fed. Cir. 2001)
(The Site Investigations clause “at least facially,
place[s] on [the contractor] any risk associated
with not inspecting the [work]’’); Luhr Bros., Inc.,
ASBCA No. 52887, 01-2 BCA ¶ 31,443 at 155,292.
Absent notice by the government of a scheduled

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

81a
site visit, Zafer had a duty to inquire as to when a
site visit was scheduled or make its own alternate
arrangements to inspect the site. Zafer did not do
so. (Finding 32) Had appellant inspected the site,
it would have seen the ANA hospital campus
buildings, including several basements, and would
have been able either to see the buildings with
multiple above-grade floors or to ask the CO about
them (finding 30). Assuming, arguendo, that
appellant’s proposal was based on or embodied a
mistake, that error resulted from Zafer’s failure to
inspect the site or review all available information
rather than a misreading of the specifications.
Zafer has failed to show by clear and convincing
that it actually misread any of the specifications.
Zafer’s decision not to request a site visit, much
less participate in one, was a business judgement.
Zafer’s decisions not to obtain the Russian
drawings or ask any questions about the Baker
sketches or the solicitation prior to submitting its
proposal were also business judgments. We
conclude that it was these mistakes in business
judgment, rather than a demonstrated misreading
of the specifications, to which the alleged error in
Zafer’s price proposal must be attributed. Zafer is
not entitled to contract reformation for such
mistakes.
3. The fifth element: Proof of the intended
bid is established
Relating to the government’s response to the
bid, and as we have determined that it is
unnecessary that we discuss elements of proof 3 or
4, we turn to the fifth element which a contractor
must prove to obtain relief for unilateral mistake.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

82a
To satisfy element 5, “[t]he contractor must
establish by clear and convincing evidence what
[its proposal price] would have been but for the
error.” Hamilton, 711 F.2d at 1046 (citing Bromley
Contracting Co. v. United States, 596 F.2d 448 (Ct.
Cl. 1979)). As we discussed under the first
element, Zafer has failed to show us any evidence
of the basis of its price proposal other than a
listing of the lump-sum prices proposed for each
building (findings 44-45). Zafer’s proposal did not
provide any proposal takeoff sheets, showing
parameters considered, cost indices, historical
pricing data, risk analyses, or other materials
which might demonstrate how it determined the
unit rates and area estimations that were used for
its calculations concerning its anticipated costs to
perform the project (finding 44). The retrospective
testimony of Mr. Tumer and the routine-proposalreview testimony of Mr. Yagci, neither of whom
actually prepared Zafer’s proposal (findings 4648), are insufficient to establish by clear and
convincing evidence what the proposal price would
have been but for the alleged mistake. Zafer, by
failing to provide either documentary evidence of
the composition of its proposal or testimony by
someone involved in preparing the proposal failed
to prove by clear and convincing evidence what its
proposal price would have been but for the alleged
mistake.
Because appellant has failed to show by clear
and convincing evidence that: a mistake in fact
occurred prior to contract award (element 1); the
mistake was a clear-cut, clerical or mathematical
error or a misreading of the specifications and not
a judgmental error (element 2); and proof of the

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

83a
intended bid is established (element 5),
appellant’s unilateral mistake arguments fail. As
Zafer has failed to prove these three threshold
elements, and it is unnecessary that we examine
either elements 3 or 4, we conclude that Zafer
cannot recover on the basis of an alleged
unilateral mistake.
B. Unconscionability
Zafer repeatedly asserts that it is
“unconscionable” to allow the government to
overreach, and take advantage of a contractor
making a unilateral mistake in its proposal that
the government knew or should have known was
erroneous. It contends that this appeal is “a
mistake in bid / unconscionability case” (app. br.
at 103). Although we agree that it is unacceptable
for the government to act unconscionably, Zafer
once more did not furnish evidence to support its
assertion
that
the
government
acted
unconscionably here. As we understand its briefs,
appellant ties this argument to its assertion of a
mistaken proposal in an attempt to shift the
burden of proof to the government for Zafer’s own
failures of business judgment. But it is Zafer, not
the government, that bears the burden of proving
that the government acted unconscionably. As we
have stated:
We have described “ ‘[u]nconscionability’
[as] that which ‘shocks the conscience’ and
[which] is associated with such concepts
as ‘overreaching,’ ‘taking undue
advantage,’ ‘bad faith,’ ‘unfairness,’ and
‘unjust enrichment’” and have stated that
it is “indistinguishable from the other

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

84a
party’s knowledge or reason to know of a
mistake.” Uniflite, Inc., ASBCA No.
27818, 85-1 BCA ¶ 17,813 at 89,036. An
unconscionable contract is “one which no
man in his senses, not under a delusion,
would make, on the one hand, and which
no fair and honest man would accept on
the other.” Glopak Corp. v. United States,
851 F.2d 334, 337 (Fed. Cir. 1988),
quoting Hume v. United States, 21 Ct. Cl.
328, 330 (1886), aff’d, 132 U.S. 406 (1889);
Rockwell International Corp., ASBCA No.
41095, 97-1 BCA ¶ 28,726 at 143,388.
A determination of unconscionability
depends on the facts of each case at the
time of contract award and is found “only
in exceptional circumstances.” TurnerMAK (JV), ASBCA No. 37711, 96-1 BCA ¶
128,208 at 140,793.
Macro-Z Tech., 12-1 BCA ¶ 35,000 at 172,006.
Appellant’s argument for overreaching appears
to be based upon the disparity between Zafer’s
proposal and both the next-lowest submission and
the IGE (app. br. at 80, 90). Disparity in proposal
prices alone, even in connection with an IGE, is
insufficient to establish a cognizable claim of
unconscionability. See, e.g., Turner-MAK, 96-1
BCA ¶ 28,208 at 140,793; W.B.&A., Inc., ASBCA
No. 32524, 89-2 BCA ¶ 21,736. Two circumstances,
neither of which is sufficiently rebutted by
appellant, militate against a finding that the
government acted unconscionably. First, the
government did request that Zafer confirm its
proposal price (finding 53). Second, CO Gaylor

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

85a
gave a credible explanation for her belief that the
price disparity was accounted for by the next
lowest offeror’s higher overhead, which was
attributed to its use of a subcontractor based in
the United States (see findings 52, 55).
As we noted in DynCorp International LLC,
ASBCA No. 56078, “[t]he doctrine of
unconscionability requires no separate analysis
[from that of unilateral mistake] because
unilateral mistake is a descend[a]nt from the
doctrine of unconscionability.” DynCorp, 09-2 BCA
¶ 34,290 at 169,407 n.3 (citing 7 J O S E P H M.
P ERILLO , C ORBIN ON C ONTRACTS § 28.41 at 258
(rev. ed. 2002)). The common concern at the heart
of both doctrines is “the overreaching of a
contractor by a contracting officer when the latter
has the knowledge, actual or imputed as
something [they] ought to know, that the bid is
based on or embodies a disastrous mistake and
accepts the bid in face of that knowledge.”
Ruggiero, 420 F.2d at 713-14 (emphasis added).
Just as Zafer failed to satisfy its legal burden to
establish a unilateral mistake in its proposal, it
has not established that the government
overreached by accepting the proposal. Again
assuming, arguendo and without so deciding, that
the government was required to request Zafer to
verify its proposal and the government’s request
for proposal verification was inadequate,
appellant has still not established entitlement, as
it must, by satisfying the remaining elements of
proof by clear and convincing evidence. Among
other things, appellant has not shown that the
proposal was, in fact, based on or embodies a

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

86a
mistake that occurred prior to contract award, and
that such a mistake was a clear-cut clerical or
mathematical error or a misreading of the
specifications, and not an error in business
judgment. See, e.g., Ellis Envtl. Grp., LC, ASBCA
Nos. 54066, 54067, 07-1 BCA ¶ 33,551 at 166,16263 (citing McClure, 132 F.3d at 711). Without such
a showing as to mistake, as low as appellant’s
proposal price might be when compared to the IGE
or that of the next-lowest offer, the risk of it
remains with appellant to bear. E.g., Atlantic Dry
Dock, 13 BCA ¶ 35,344.
C. Differing site conditions
It is not entirely clear whether Zafer intends to
pursue relief under a differing site conditions
theory. In fact, Zafer twice disclaims this theory,
while, nevertheless, inviting us to make our own
investigation in that regard: “Appellant does not
believe this is a Change Conditions Type I or Type
II, rather it’s a mistake in bid/unconscionability
case. However, if the Board determines it is[,]
appellant has met the requirements” (app. br. at
103); and, “Appellant does not believe this is a
case of a differing site conditions situation either
Type l or Type 2 ..... However, if the Board views
this as a differing site condition[,] then appellant
meets the requirements of entitlement under that
clause.” (Id. at 105-06)
The contract includes the standard Differing
Site Conditions clause (see findings 17, 19), “[t]he
purpose of [which] is to allow contractors to
submit more accurate bids by eliminating the need
for contractors to inflate their bids to account for

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

87a
contingencies that may not occur.” H.B. Mac, Inc.
v. United States, 153 F.3d 1338, 1343 (Fed. Cir.
1998) (citing Foster Constr. C.A. & Williams Bros.
Co. v. United States, 435 F.2d 873, 887 (Ct. Cl.
1970)). “Differing site conditions can arise in two
circumstances: (1) the conditions encountered
differ from those indicated in the contract (Type
I), or (2) the conditions encountered differ from
those normally encountered (Type II).” Id. at 1343.
To the extent that Zafer’s cryptic remarks
require that we consider whether there were
differing site conditions, we note that the
elements of proof required to establish entitlement
under a “Type I” legal theory are as follows:
The elements of a Type I differing site
condition, which FAR 52.236-2(a)(l)
defines as “subsurface or latent physical
conditions at the site which differ
materially from those indicated in this
contract,” are: (l) the condition indicated
in the contract differs materially from
those encountered during performance; (2)
the conditions actually encountered were
reasonably unforeseeable based on all
information available to the contractor at
the time of bidding; (3) the contractor
reasonably relied upon its interpretation
of the contract and contract-related
documents; and (4) the contractor was
damaged as a result of the material
variation between expected and
encountered conditions. Optimum
Services, Inc., ASBCA No. 58755, 15-1
BCA ¶ 35,939 at 175,653-54 (citing

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

88a
Stuyvesant Dredging Co. v. United States,
834 F.2d 1576, 1581 (Fed. Cir. 1987); and
Comtrol, Inc. v. United States, 294 F.3d
1357, 1362 (Fed. Cir. 2002)). A contractor
must prove these elements by a
preponderance of the evidence. Id.
Tetra Tech Facilities Constr., LLC, ASBCA Nos.
58568, 58845, 16-1 BCA ¶ 136,562 at 178,085.
Once more, even assuming arguendo that Zafer
had met elements 1 and 2 of a “Type I” legal
theory, the contractor faces the same impediment
in satisfying elements 3 and 4 as in its assertion
of a unilateral mistake. The common factor for
each of these is that appellant must furnish
evidence of the contract-related information relied
upon at the time it prepared and submitted its
proposal and how its demonstrable proposal price
for each item of recovery was exceeded by
increased costs of performance. Other than Mr.
Yagci’s broad statement, without further
explanation, that he was aware of the proposal
preparers’ rationale, Zafer failed to furnish any
substantive information regarding reasonable
assumptions it made that are tied to the
information made available by the government to
prospective offerors (findings 44-48). As appellant
failed to meet its burden of proof that it relied
upon allegedly erroneous or deficient governmentfurnished information in making its proposal, it is
unnecessary that we make a detailed comparison
of the solicitation and conditions actually
encountered on the ground.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

89a
Having said that, however, we note that the
Baker sketches clearly indicated the existence of
stairwells in Building Nos. 5A and 5B (finding 8).
We have also found that Zafer could have learned
from the Russian drawings about the existence of
basements and above-grade areas that might not
otherwise be identified in the solicitation (findings
37-40), and that Zafer furnished no evidence that
it even attempted to obtain them until after
contract award (findings 41, 60). “[W]here a claim
is made for differing site conditions, the contractor
will be charged with knowledge that it could have
obtained by reviewing available bid documents.”
Comtrol,
294
F.3d
at
1364
(citing
Randa/Madison, 239 F.3d at 1270-71). “[The
contractor] cannot bid in ignorance and then base
a claim for equitable adjustment on a document
that it did not review.” Id. at 1364. In any event,
the government sufficiently demonstrated that
work on particular subgrade and above-grade
areas, for which Zafer seeks additional
compensation because it allegedly left these out of
its proposal, could readily have been determined
from a site investigation and information
contained on the Russian drawings (findings 30,
37-41). The Site Investigation clause places the
burden on the contractor (finding 20). See Luhr
Bros., 01-2 BCA ¶ 31,443 at 155,292 (“[The
contractor] must show that prior knowledge of the
alleged [differing site condition] could not
reasonably have been anticipated by its study of
the contract documents [and] its inspection of the
site.”). Zafer admits that it did not investigate the
site prior to submitting its proposal, offered no
proof that it inquired of its own initiative

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

90a
regarding a site visit, and in fact dismissed the
need for a site visit as unnecessary (finding 32).
Nor did appellant analyze all information made
available by the government.
The elements required to establish entitlement
under a “Type II” legal theory are as follows:
A Type II differing site condition requires
the contractor to prove the recognized and
usual conditions at the site, the actual
physical conditions encountered and that
they differed from the known and usual,
and that the different conditions caused
an increase in the cost of contract
performance. Charles T. Parker Constr.
Co. v. United States, 433 F.2d 771, 778
(Ct. Cl. 1970); Costello Industries, Inc.,
ASBCA No. 49125, 00-2 BCA ¶ 31,098 at
153,585. It is a relatively heavy burden of
proof.” Parker Constr., 433 F.2d at 778.
Nova Group, Inc., ASBCA No. 55408, 10-2 BCA ¶
34,533 at 170,329. “Most fundamentally,
establishing entitlement to recovery for a Type II
differing site condition require[s] that the
contractor prove, inter alia, that the conditions
encountered were of an ‘unusual’ nature.”
MARCON Eng’g, Inc., ASBCA No. 57471, 15-1
BCA ¶ 35,974 at 175,773-74 (citing Kos Kam Inc.,
ASBCA No. 34037, 88-3 BCA ¶ 21,100 at 106,524).
“An ‘unusual’ condition is one that might not
reasonably be anticipated given the nature and
location of the work.” Kilgallon Constr. Co.,
ASBCA No. 51601, 01-2 BCA ¶ 31,621 at 156,224
(citing Kinetic Builders, Inc., ASBCA No. 32627,
88-2 BCA ¶ 20,657 at 104,400).

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

91a
Appellant has offered no argument, much less
any evidence, that subgrade and above-grade
areas of buildings on the ANA hospital campus
constitute “unknown conditions” of an “unusual
nature” given the work required by the contract
and Zafer’s experience. We do not see how such an
argument could feasibly be made considering the
facts of this case. The Baker sketches showed only
some of the above-grade floors (see Fig. 2 for
Building Nos. 1, 2, and 3) and clearly indicated
the existence of stairwells in Building Nos. 5A and
5B (see Fig. 3). The solicitation contained
numerous, varying references to basements and
above-grade areas; a site inspection would have
revealed that many, if not most, of the buildings
included subgrade and above-grade areas; and the
Russian drawings indicated subgrade and abovegrade areas in many of the buildings. (See findings
7-8, 21-26, 30, 37-40)
We conclude that appellant has not shown that
any of the subgrade and above-grade areas of the
ANA hospital campus constitute either “Type I” or
“Type II” differing site conditions.
D. A p p e l l a n t ’ s
other
arguments;
government’s affirmative defense

the

We have considered the other arguments
advanced by appellant (e.g., defective
specifications and “contra proferentem”) and find
them to be without merit. Given appellant’s
failure to argue its alternative theories in its posthearing briefs, it is unnecessary for us to discuss
our rejection of them in detail. See States Roofing
Corp., ASBCA No. 54860 et al., 10-1 BCA ¶ 34,356

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

92a
at 169,664 (failure to address pleading contention
in post-hearing briefs equated to abandonment of
the issue).
The government contends in its post-hearing
briefs that the affirmative defense of accord and
satisfaction applies in this case, and therefore
appellant is not entitled to further reformation of
the contract (gov’t br. at 36-37). The government
argues that bilateral Modification No. P00010 (see
findings 66-68) addressed the instant dispute, and
that the government has performed its
responsibilities under the modification and the
defense of accord and satisfaction therefore
applies (gov’t br. at 36-37). Inasmuch as we have
held that appellant has failed to satisfy its burden
of proving entitlement under any of the theories
advanced, it is unnecessary for us to address the
government’s accord and satisfaction affirmative
defense. E.g., Rainbow Elec. Co., ASBCA No.
9212, 65-2 BCA ¶ 5119 at 24,103.

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

93a
CONCLUSION
For the foregoing reasons, the appeal is denied.
Dated: 2 June 2017
/s/ Reba Page
REBA PAGE
Administrative Judge
Armed Services Board
of Contract Appeals
I concur

I concur

/s/ J. Reid Prouty

/s/ Richard Shackleford

J.REID PROUTY
Administrative Judge
Acting Vice Chairman
Armed Services Board
of Contract Appeals

RICHARD SHACKLEFORD
Administrative Judge
Acting Chairman
Armed Services Board
of Contract Appeals

I certify that the foregoing is a true copy of the
Opinion and Decision of the Armed Services Board
of Contract Appeals in ASBCA No. 56769, Appeal
of Zafer Construction Company, rendered in
conformance with the Board’s Charter.
Dated: AUG 16 2017
/s/ Jeffrey D. Gardin
JEFFREY D. GARDIN
Recorder, Armed Services
Board of Contract Appeals

79569 • CLIENT: Gdanski • APPENDIX

lkp 00:00 07/23/19

Case: 17-2430

Document: 45

Page: 1

Filed: 04/30/2019

94a
NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

ZAFER CONSTRUCTION COMPANY, AKA ZAFER
TAAHHUT INSAAT VE TICARET A.S.,
Appellant
v.
UNITED STATES ARMY CORPS OF ENGINEERS,
Appellee
______________________
2017-2430
______________________
Appeal from the Armed Services Board of Contract Appeals in No. 56769, Administrative Judge J. Reid Prouty,
Administrative Judge Reba Page, Administrative Judge
Richard Shackleford.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

Case: 17-2430

2

Document: 45

Page: 2

Filed: 04/30/2019

ZAFER CONSTRUCTION COMPANY v. UNITED STATES ARMY
CORPS OF ENGINEERS

95a

ORDER
Appellant Zafer Construction Company filed a combined petition for panel rehearing and rehearing en banc.
The petition was referred to the panel that heard the appeal, and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 7, 2019.
FOR THE COURT
April 30, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

